<html>
<title> - GSA: FISCAL YEAR 2000 BUDGET FOR PUBLIC BUILDINGS AND THE COURTHOUSE PROGRAM</title>
<body><pre>[Senate Hearing 106-472]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-472

 GSA: FISCAL YEAR 2000 BUDGET FOR PUBLIC BUILDINGS AND THE COURTHOUSE 
                                PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 1999

                               __________

  Printed for the use of the Committee on Environment and Public Works


                     U.S. GOVERNMENT PRINTING OFFICE
63-226 CC                    WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  GEORGE V. VOINOVICH, Ohio, Chairman

JOHN W. WARNER, Wyoming              MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                JOSEPH I. LIEBERMAN, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 28, 1999
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    12
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................     3
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     2

                                WITNESS

Peck, Robert, Commissioner, Public Building Service, General 
  Services Administration........................................     3
    Prepared statement...........................................    16
    Responses to additional questions from Senator Wyden.........    18

                          ADDITIONAL MATERIAL

Statement, Bernard H. Berne......................................    18

                                 (iii)

  

 
 GSA: FISCAL YEAR 2000 BUDGET FOR PUBLIC BUILDINGS AND THE COURTHOUSE 
                                PROGRAM

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 1999


                                       U.S. Senate,
                 Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room 406, Senate Dirksen Building, Hon. George V. Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Baucus, and Moynihan.
     Also present: Senator Wyden.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. The subcommittee will come to order.
    I would like to begin with mentioning that Senator Baucus, 
regretfully, cannot be here. He is tied up and will try to get 
here. We appreciate Senator Wyden being here this morning.
    I would like to thank Robert Peck, Commissioner of the 
Public Buildings Service of the General Services 
Administration, for coming here today to discuss GSA's 2000 
budget for the Public Buildings Service.
    The committee has before it a number of projects that are 
in need of authorization in order to spend funds that have been 
recently approved by Congress in fiscal year 2000 by the 
Treasury/Postal appropriations bill--in other words, the money 
has been appropriated but the authorization hasn't occurred. 
These projects include the following:

    <bullet>  Thirteen repair and alteration projects totaling 
almost $178 million;
    <bullet>  Thirteen advance design projects totaling almost 
$18 million;
    <bullet>  Seven construction projects totaling a little 
over $83 million; and??
    <bullet>  Nineteen leases totaling $127 million.

    Of these project authorizations, all but one, the U.S. 
Mission to the United Nations, require this committee's support 
in the form of a committee resolution before these funds 
actually can be spent.
    As the Environment and Public Works Committee is going to 
hold a markup tomorrow, I would hope that the committee would 
feel confident in moving forward on all of these resolutions 
that we have before us.
    Mr. Peck, we thank you very much for appearing here today, 
and we look forward to your testimony.
    Senator Wyden. Mr. Chairman?
    Senator Voinovich. Yes?
    Senator Wyden. With your indulgence, I have to be on the 
floor in just a few minutes. Could I make just a very brief 
comment?
    Senator Voinovich. Absolutely, Senator Wyden. I appreciate 
your being here, too.

             OPENING STATEMENT OF HON. RON WYDEN, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Wyden. And I certainly concur with everything that 
you have said. As you know, I have especially enjoyed working 
with you on many of the issues before this committee, and I 
appreciate your thoughtfulness again this morning.
    As Mr. Peck knows, there is a great concern in Eugene, 
Oregon, in my home State, about the situation with respect to 
siting a new Federal courthouse. Earlier this month, GSA 
announced that it had picked a site, and there were enormous 
objections from the business community at home in Eugene. The 
business committee has felt that it would eliminate hundreds of 
parking spaces and do enormous damage to businesses in the 
downtown commercial district.
    Suffice it to say, I can't recall a situation where I've 
heard so much of an uproar from business folks, and very 
dedicated citizens, folks who are involved in just about every 
aspect of civic life. We're just anxious to make sure that this 
doesn't become a sort of ``false choice'' between either a 
secure courthouse, which you are in the business of doing and 
do well, or having a downtown business district in my home 
State in the city of Eugene.
    Because of your comments, even before the hearing, I 
understand that it will be possible for the city of Eugene to 
have the additional time to come up with alternative kinds of 
approaches, to work with all of you for the kind of win-win 
situation that I know you are committed to, so that you can get 
about the task of constructing the project, and at the same 
time we can meet these business concerns.
    With your indulgence, Mr. Chairman, I will have a few 
questions that I would submit in writing. I was very 
appreciative of Mr. Peck coming up even before the hearing 
started, because having been before this committee, he knew the 
questions that he was going to get asked. I think his response 
is very courteous and very helpful and it is appreciated.
    I thank you very much for the chance to take a little time, 
even before Mr. Peck's testimony.
    Senator Voinovich. Thank you, Senator.
    Mr. Peck. Mr. Chairman, if I might, just to confirm, we 
think our job in building new courthouses--of which we're 
building a goodly number; we have about 40 either completed or 
under way, a fairly large program--we think our job is to build 
buildings that are a benefit to the community, both because 
through their architecture they are worthy of the American 
people, dignified, representing the dignity and vigor--Senator 
Moynihan will remember some of these words--and the enterprise 
of the American national government.
    Obviously, we have security concerns, but our mission is to 
make buildings that are both secure and lively and inviting to 
the public. In Eugene there has been some concern about the 
choice, and we are prepared to work with the city. I think they 
have asked for a period of 30 days; we will see what it takes 
to come up with a good solution.
    Senator Voinovich. Thank you, Mr. Peck.
    Senator Moynihan is here with us this morning.
    Senator would you like to make a few remarks before Mr. 
Peck testifies?

      OPENING STATEMENT OF HON. DANIEL PATRICK MOYNIHAN, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Moynihan. Thank you, Mr. Chairman, just to welcome 
an old friend of many years who once worked with us here on the 
committee, doing a superb job as the Director of Public 
Buildings. I don't think we have ever had so qualified a 
person, and it shows in the quality of his work.
    Senator Voinovich. I have had just a little experience with 
Mr. Peck and his operation, and I share your words of 
compliment. It is a very professional organization and, I must 
say thus far, one of the most refreshing experiences I've had 
since I've been a Senator.

STATEMENT OF BOB PECK, COMMISSIONER, PUBLIC BUILDINGS SERVICE, 
     GENERAL SERVICES ADMINISTRATION; ACCOMPANIED BY PAUL 
   CHISTOLINI, DEPUTY COMMISSIONER, PUBLIC BUILDINGS SERVICE

    Mr. Peck. I thank both of you for your comments. I am very 
appreciative of the opportunity to be here in front of the 
committee.
    If I might, Mr. Chairman--I know we want to make this 
brief--I would indulge you for just a couple moments, because 
the Public Works Committee in the Senate and the Transportation 
Committee in the House review, by law, the capital projects 
which we propose, which are but a small proportion, actually, 
of the program that we run. I will be quick to get back to the 
capital program, but I just note, to put this in context, that 
we are proposing to you for this year some 19 leases which we 
ask the committee to propose because they are in excess of the 
legal requirement that you approve leases that will cost more 
than about $1.9 million per year in base rent.
    Those 19 leases come to approximately $130 million in 
obligations in fiscal year 2000. We have some 22,000 leases 
which house about half of the 1 million Federal employees whom 
we do house in work space. The total leasing budget for fiscal 
year 2000 is about $2.8 billion. When I worked on this 
committee staff--a very happy period, but nearly 20 years ago--
we were alarmed that the leasing budget was approaching $1 
billion a year, and it is now approaching $3 billion a year.
    So we are spending a lot of money and, as I will explain in 
a moment, we are quite businesslike. We look at things like our 
net income. For us, one concern for this committee is that the 
percentage of space that we have in leases, the way our system 
is set up, really constrains the amount of money that we have 
available for repairs and alterations and construction. So we 
are in a little bit of a vicious cycle: the more we lease, the 
less money we have for other purposes, because we make some net 
income on the buildings we own.
    In any event, to put the program in context, also we do--
and I always say I am one of the luckiest people in the 
Government; everyone says the Government should run pretty much 
like a business. You can't quite run like a business, but in 
our agency you actually can get pretty close, because we 
collect rents from Federal agencies, and we have expenses, 
which we can track building-by-building. You can't get any 
closer, really, to running a real estate business than that.
    We are one of the largest commercial real estate businesses 
in the United States, probably the largest if you count office 
space. We have 330 million square feet in courthouses, 
laboratories, border stations, warehouses. We are represented 
in 1,600 different American communities. We have 1,800 
Government-owned buildings, and our leases are spread among 
6,500 privately owned buildings.
    Uniquely, I have to say that were I a Wall Street banker, 
while I would be happy to have an inventory this large, I would 
be concerned at having an inventory this old. Over 40 percent 
of our buildings are more than 50 years old, which means that 
our repair and alterations, our renovation needs, are really 
quite amazing. The rule of thumb in most real estate businesses 
is that you really don't want to hold a building more than 20 
years because after this time period the repair bills really 
begin to come due.
    We are doing a good job of maintaining our buildings, but 
as you will see, we place quite a bit of emphasis on repairing 
and altering our space.
    Finally, if I can follow on to my point about how we do 
operate like a business, I think we, almost more than any other 
Government agency with which I am familiar, have taken our 
concern about performing like a business down to the regional 
and individual level, to the point where we have created 
friendly competitions among our 11 regions to be the cheapest, 
best, and fastest that they can be at doing our business. We 
have nine performance measures, which have quickly become known 
as the ``Big Nine'' in our organization, which help us allocate 
money across regions. In fact, individual bonuses this year 
were tied directly to a region's performance on performance 
measures. The performance measures include such things as the 
vacancy rate in buildings. Regions were told that if they could 
hit certain targets in getting their vacancy rate down, or 
getting their customer satisfaction scores up, or reducing 
their expenses, or bringing their projects in on time and on 
budget, they would be given additional funds, which we held 
back in the national office. The additional funds then 
allocated out as both individual bonuses and, most notably, as 
extra money that they could spend to bring their buildings up 
to our standards.
    So this has resulted in the following kinds of improvements 
in our business.
    Our operating costs per square foot in a Government office 
building are now 11 percent below comparable costs in the 
private sector. The average rents we pay in private sector 
buildings in nearly every major market in this country are at 
or below what private sector tenants pay.
    Our customer satisfaction scores, measured in hundreds of 
our buildings by the Gallup Organization, have increased 
significantly over the last 2 years, and our regions have a 
pretty hefty and hearty competition over bringing those rates 
up. I won't tell you how many beers have been won or lost over 
whether someone can get their rates up or not.
    Our utility costs are already about one-third below private 
sector comparables. Our energy consumption from 1985 to 1998 
was reduced by 17 percent, and will be reduced by an additional 
3 percent by fiscal year 2000.
    So, as I have said, we think our job is to run as much like 
a business as we can. Quite honestly, the better we run our 
business, the more net income we have available to come to you 
with prospectuses for repair and alterations, and to create a 
cycle in which we create income that makes our buildings 
better, that keep our customer satisfaction scores rising, and 
which give to the American people new border stations, 
courthouses, and existing buildings. As I like to say, these 
new buildings need to be worthy of the American people and 
encourage our Federal work force to be productive. When the 
public comes to visit them, the buildings should make the 
public believe that the Federal Government is a professional, 
well-run organization that cares about them and about their 
communities.
    I will note that usually, when we have a large construction 
program going--and this is part of the structure of the Federal 
Buildings Fund, into which we deposit our rents--it is 
necessary for us to ask for additional appropriations for any 
program as large as the courts program. We have found it 
necessary over the past 25 years to ask for additional 
appropriations.
    You will see that as our net income is increasing, we are, 
in fact, however, finding it possible to do some new 
construction projects within our Federal Buildings Fund 
revenues, and we will talk a little bit more about construction 
in a moment.
    Mr. Chairman, you went over our capital program for the 
year. You are absolutely right. I just want to assure you that 
in coming up with the repair and alterations projects, which 
you have before you, we have again applied businesslike 
measures. A couple years ago we began asking, when our regions 
came to us with repair needs, for them to do a return on 
investment analysis that any private sector organization would 
do, and to show us that over the next 10 to 20 years, if we put 
``X'' million dollars into a building, that it will in fact get 
us a return, either through increased revenues or the ability--
most important to us--to increase the effective use of space in 
a building. So for example, if we have a building that is 20 
percent vacant, someone has moved out, we will allocate funds 
to it to help reorganize the space, make it more modern, and 
bring more people in. In net terms over several years, this 
will increase our revenues.
    Obviously, there are some things that you have to pay for 
no matter what. We don't apply the same kind of mathematical 
calculation to security or, obviously, to health and safety 
issues or, quite honestly, in some cases to historic 
preservation issues. Fully a quarter of our owned inventory is 
either on the National Register of Historic Places or eligible 
for it, and there are occasions where we believe that the 
details that are in those buildings deserve some slight extra 
expenditure.
    Finally, in deciding which projects are proposed in any 
given fiscal year, when we ask you for funds for design, we 
obviously believe we can go out and do that right away. We then 
have to see where our designs are before we actually ask you 
for construction funds for the projects.
    I would note two final things.
    Obviously, the Treasury/Postal Service appropriations bill 
for fiscal year 2000 has emerged from conference. I don't know 
if the bill has actually been presented to the President, but 
the funding for most of the projects which we are presenting to 
you by prospectuses are in fact already provided for in that 
bill, although I do note that there are some disconnects. Our 
fiscal year 2000 program did include some projects that were 
not funded by the Congress. Nonetheless, we are asking you to 
approve the prospectuses because the prospectus authorizations, 
once made, do hold over.
    Finally, I would note that it is the 50th anniversary of 
the founding of the General Services Administration. We were an 
outgrowth of the Hoover Commission in 1949, and we have taken 
this opportunity to take a look at the Federal Property and 
Administrative Services Act--under the jurisdiction of a 
different committee--to suggest some changes, and we are 
working within the Administration and hope soon to be able to 
present to you a bill that we think would enable us to operate 
even more effectively.
    That concludes my statement. I will be happy to answer any 
questions about the projects that we have presented to you.
    I hasten to add that on most of your specific questions, I 
will probably turn almost immediately to Paul Chistolini, our 
Deputy Commissioner, who lives these projects most every day, 
more than I do.
    Senator Voinovich. Perhaps you might, just for the record, 
explain to the committee the current status of the U.S. Mission 
to the United Nations. It's something that came up before us; 
it's not here today, but we handle it separately. If you could 
just bring us up to date on where we are, for the record?
    Mr. Peck. Yes, sir. Well, the Administration proposed the 
design and construction of a new Mission building on the site 
of the existing building in New York City. Funding for the 
design was not included in the appropriations bill, and I will 
note one change the Administration has made since we submitted 
the prospectus--although I will ask someone to jump up if I am 
wrong.
    At the request of the State Department, we are no longer 
requesting the inclusion of a residence in the U.S. Mission 
building. The Ambassador will continue to be housed at the 
Waldorf Astoria. The State Department, for various reasons, 
believes that is the most cost-effective approach. The current 
Ambassador prefers it, and so we have deleted that.
    Mr. Chistolini corrects me. We have received funding for 
design of the Mission and have selected an architectural firm. 
We did not receive the funds necessary to demolish the existing 
building, and thereby begin construction. So that is still 
pending.
    Senator Voinovich. All right. So somebody has picked an 
architect, and they are going about designing the facility. The 
fact is that the money for demolishing the building has not 
been appropriated?
    Mr. Peck. Yes, sir. That is correct.
    Senator Voinovich. Senator Moynihan, do you have some 
questions you would like to ask?
    Senator Moynihan. Yes, sir, a comment, if I may.
    I went up to look at the U.S. Mission a couple of months 
ago. I used to work there. Major Peck--I call him ``Major 
Peck''--his observation that private firms don't like to keep 
their buildings more than 20 years, it shows in the building 
across from the U.N. It's in pretty bad shape, and not big 
enough. I did not at all like the idea of putting the 
Ambassador on top of it, because there are just more things 
that happen at the United Nations, and that building is the 
site for American delegations to other activities of all sorts. 
It's just not big enough, and there you are.
    But I would like to ask, if I may, Mr. Chairman, when Major 
Peck was on our committee staff, he was one of those active in 
the movement which John Chafee was very much interested in, and 
other Senators, that we were leasing too much, and that we 
ought somehow to have a goal of, perhaps, 70 percent of our 
employees in Government-owned space. But obviously we are 
falling back a bit, or we're not making any movement toward 
that. I don't say that 70 percent was agreed on, but it was 
more than 50 percent.
    Have we changed our mind? Or do such circumstances give you 
no alternative?
    Mr. Peck. The percent hasn't much changed since I worked 
here 20 years ago. It changed significantly from the late 
1960's to the late 1970's, from--I don't recall the exact 
figures, but we had 60 to 70 percent in Government-owned space, 
and then----
    Senator Moynihan. That's right. That has dropped, you see.
    Mr. Peck.--it got down to about 50 percent, and it has sort 
of remained there. Obviously you want some people in leased 
space because there are functions that move, there are things 
that change; I mean, we're seeing the IRS reorganizing. So we 
are actually happy about places where we had them in a lease, 
which will expire relatively soon, so that we can move things 
around.
    But so many of the functions of the Government are so 
permanent. The Social Security Administration, as you know, 
talks in 50- to 75-year chunks; leasing space for them 5 years 
at a time if it's a major administrative center is not the 
right approach. But we are constrained, quite honestly by how 
much funding we can get in competition with other funds. And 
quite honestly, in the last 6 or 7 years, most of the 
construction funds which have been appropriated--and there have 
been some significant appropriations--have gone to courthouses 
because of the explosion of litigation, judgeships, and, quite 
honestly, the age and security concerns about older 
courthouses.
    Senator Moynihan. If you were to make that businesslike 
decision that you were talking about, would you want more than 
50 percent?
    Mr. Peck. Yes. I think that actually what we sought in 
1979-1980 was sort of a guess of about 75 percent. Most of the 
time, when you run the numbers for an organization like the 
Government, as fundamentally stable as the Federal agencies 
are, that seems to be about the right number. Maybe it's 70 
percent, because we're seeing more volatility in Federal 
agencies than we used to.
    But still, we think people would be better off for lots of 
reasons if we had more in owned space.
    Senator Moynihan. Well, Mr. Chairman, I just thought you 
might want to hear that. There's not much you can do about it 
this week, but it might not be a bad idea to set some 10- or 
20-year goals.
    Senator Voinovich. Well, when you raised the question I 
thought back to my years as Governor of Ohio. I can't tell you 
the percentages on the amount of space that our State leased, 
but I think it is less than 50 percent, but I wouldn't know 
what the number is. In fact, I am going to ask that question 
and get the answer to it.
    The Property Act, I would be interested to know--and you 
don't have to go into detail--I would be interested in getting 
some information from you on some of the proposals. When would 
you expect that you would want us to respond to your 
recommendations?
    Mr. Peck. Well, we hope to have some legislation cleared in 
the next month or so, so it may be late for this session. But 
certainly, we hope to see it up here early next year.
    Senator Voinovich. The Federal Protective Service, because 
of the bombings, we have really increased dramatically the 
amount of protection. Do you have any figures at all on the 
additional costs that you have incurred and the impact it has 
had on your operations?
    Mr. Peck. Yes, sir. In essence, we took a look--I won't 
describe to you the methodology, but we tried to figure out 
what would we have spent on security following the Oklahoma 
City bombing, and what have we spent? We just straight-lined 
where we had been before. We have about doubled spending on 
security since Oklahoma City. Most notably, between then and 
now we have spent about $1.2 billion on security, whereas at 
the previous rate we would have spent about $600 million. 
That's divided about 60 percent/40 percent between personnel 
and services expenditures, and equipment expenditures. In other 
words, we have spent--I forget how those numbers work out, but 
something like two-thirds is more contract guards, more of our 
own uniformed guards, and about one-third for equipment like 
new x-rays and magnetometers and closed-circuit TV cameras.
    I would note, because this is an issue that may come up to 
you, that we have taken on an overhaul of the Federal 
Protective Service. We have, as I say, doubled the number of 
uniformed officers. I think there were about 350 at the time of 
the Oklahoma City bombing. There will be more than 700 fairly 
soon. However, even that number--obviously, when we have 1,800 
buildings, and you figure that they can only work so many hours 
a day--doesn't translate into one officer per building. Nor 
should we, necessarily. We are changing the way our force 
behaves. They have been stuck, quite honestly, in the outmoded 
police pattern of waiting for the 911 call to come in, and 
responding. But like forward-looking police forces, we are 
moving to a form of community policing where officers will be 
more evident in the buildings. We are retraining them so that 
they are more expert on physical security. We know that they 
know how to shoot and arrest, but we think they need to learn a 
little bit more about securing an installation--and, by the 
way, doing it in a way that is still conducive to the public 
entering and exiting the buildings and not turning our 
buildings into armed fortresses.
    I will present one concern to you. There is a bill pending 
in the House of Representatives that would turn the Federal 
Protective Service--take it out from under the Public Buildings 
Service and make it an independent agency in the General 
Services Administration. In many other respects, I have to 
note, the bill that is pending in the House is quite salutary; 
it has some reforms in the Federal Protective Service that I 
personally fully endorse.
    Making the Federal Protective Service independent of PBS 
is, I believe is an effort by some in the force who don't want 
to get out of their cars and be more aggressive in security 
measures. To take it out, quite honestly, from under my control 
is an effort by some to keep the organization from changing. I 
forcefully oppose that move for that particular reason. 
Otherwise, I have to say that our Administrator of GSA, who 
would be their supervisor were this bill to pass, he and I 
agree totally on how they ought to operate. As long as we're 
there, it probably wouldn't change much. But I do believe it's 
a mistake because security needs to be integrated into the way 
you operate a building. You can't have the building manager 
going in one direction and the security folks going in another; 
they need to talk more.
    In any event, that's a long way of answering your question, 
but we are spending a lot of time on security and trying to 
make it better, while at the same time keeping our buildings 
open.
    Senator Voinovich. One of the things--of course, when I am 
at our Federal Building in Cleveland I hear from the people 
that are in security, and many of them want to go off and be 
under a separate jurisdiction.
    In terms of expanding security, I am glad to hear that you 
understand that they need to have further training and change 
the paradigm that they've had in the past, but what 
opportunities are you giving the current security force versus 
privatizing? By that, I mean--we went through this in State 
government; we had agencies that became independent, and then 
the issue became whether or not they would use the people who 
were working for the State of Ohio, or would they go out and 
contract it out.
    What position have you taken toward that?
    Mr. Peck. Well, about 20-some years ago the GSA Federal 
Protective Service was several thousand strong, and most of the 
officers were performing services of guarding entrances to 
buildings. In the early 1980's, one of the Reagan 
Administration reforms was to contract most of that out to 
building security guards. I have to say, quite honestly, I have 
no objection to that, if the security guards are well trained. 
We are just finishing revision of our standard guard contract 
to upgrade the training of the security guards. While they are 
taught how to shoot and how to sit at a door, I don't think 
they are well trained enough yet to recognize certain kinds of 
threats when they appear.
    Since Oklahoma City we have doubled the size of the 
contract force, which is about 5,000 contract guards, but we 
have also doubled the size of the uniformed force. I actually 
think that's about the right ratio because I want our uniformed 
officers to be like officers in the military, the people who 
supervise the work of that contract force. It's very hard to 
recruit people these days just to sit at a door, and you're 
always going to have high turnover. We spend a lot of money 
training our uniformed officers, and we want them to be a lot 
more skilled in a number of areas--like how security equipment 
works, how you defend a perimeter. We are giving our officers 
more training. We are changing the whole way our officers are 
recruited and paid so that our officers are going to be called 
``law enforcement security officers.'' They will be offered 
grade increases, and we are offering our existing officers the 
opportunity to apply for those new jobs first. I hope that in 5 
or 10 years our entire force will be made up of these officers 
who are more skilled.
    Senator Voinovich. I think that probably would go a long 
way to lessen the demand for them to be under separate 
jurisdiction, because you're treating them more like law 
enforcement officers. I think that's part of the problem that 
many of them feel: ``We need out of here because we have these 
tough jobs and we're not getting the training that we need to 
do the job that we're supposed to be doing.'' That's great.
    Mr. Peck. I am in a strange position. We have offered 
higher grades and still have some opposition from some of the 
officers.
    I will say this: at least it's not about the money for 
them. And the officers, even the ones who oppose me on this 
issue, I have to say, are dedicated to the job and made a 
decision to be police officers and are very serious about their 
careers.
    Senator Voinovich. One other thing that I have 
encountered--that's why it's nice to be in a Federal building 
because you can see firsthand what the problems are, and that 
is that in order to maintain security, just about everybody has 
to go through the security operation, and there are some 
functions in those buildings that might not require that kind 
of security. The challenge is, how do you separate it and 
divide it up so that people have access? On the other hand, you 
make sure that when they're going to some other place in the 
building, that it is secure.
    Would you like to comment on that?
    Mr. Peck. Yes, sir. That's a very serious concern; you put 
your finger on one of the big issues facing us.
    For example, we have a small program going called ``First 
Impressions.'' We're trying to upgrade our lobbies. It's 
another area in which we've discovered that you can't do that 
these days. You can't make a Federal building lobby feel like a 
nice place without dealing with how the security works. I will 
tell you, for example, walking into this building from the 
entrance at 1st and Constitution, you immediately encounter a 
magnetometer before you get in the door. So the queues go out 
into the foyer. That, in my opinion, is not the right way to do 
it, but it costs you some money and thinking to do it 
differently.
    We have a building in downtown Chicago in which we have a 
food court, and we were able to move the security so that you 
can't get into the elevator lobby, which goes to the upper 
floors in the Federal building, without going through security. 
But the food court manager told us, not surprisingly, that if 
you make people come through security at lunchtime to try to 
get to McDonalds, ``we won't be in business very long.''
    Granted, there are concerns on the part of Federal 
employees and visitors. A worry that someone in this separate 
part of the building might bring in a bomb or something of that 
nature, so we still have to be careful.
    I will tell you, one reason that I believe this is doable--
to cite a strange source, and we're consulting with them--is 
that there is a lot of security at Disney World, but you don't 
know it. They have a lot of concerns. So, we are talking to 
people like that who have figured out how you can make some of 
these things work. But it's a real issue for us, and we work a 
lot with our customers to try to alleviate their fears to have 
a security system that we think makes sense, and still appears 
to be welcoming to the public.
    Senator Moynihan. Mr. Chairman, could I just ask one 
question?
    Senator Voinovich. Yes, Senator.
    Senator Moynihan. I don't suppose it's in your 
jurisdiction, but did we have to close Pennsylvania Avenue in 
front of the White House?
    Mr. Peck. Senator, in my job that's one of those ``third 
rail'' questions, which I probably shouldn't answer. It's 
another one of those issues where you can make different calls, 
based on how you weigh the threat versus the cost of closing 
off the avenue.
    I guess to be fair to those who made that decision, there 
were probably costs associated with trying to protect the White 
House without closing Pennsylvania Avenue which perhaps they 
weren't prepared to make.
    Senator Moynihan. Well, I mentioned cost. I wondered--I 
noticed that almost the first thing they did after they closed 
off the avenue was to paint a parking lot and give them 
numbers. Do they lease them? Or are those just the perks of the 
upper reaches of the Treasury Department?
    Mr. Peck. I think you have correctly surmised what happened 
to the parking spaces on the Treasury end of the avenue. They 
are, as I understand it, reserved for Treasury employees, I 
don't know for whom.
    Senator Moynihan. Shouldn't they be rented out?
    Mr. Peck. If it were under GSA control, we would probably 
try to rent them, although I think we would have resistance 
from the agency.
    Senator Moynihan. There you are, Mr. Chairman. That's why 
we have a first-rate fellow here.
    [Laughter.]
    Senator Voinovich. Well, I'd just like to comment. I 
remember, and I'm sure Senator Moynihan does, visiting the 
White House in the old days, and it's very difficult for me to 
see the security. It's kind of a sign of sickness in our 
country, the way that the road is closed now. You just do 
wonder do yourself, is there some other way that you can get 
the job done without that kind of stark statement that ``We 
have to close the road because this is a dangerous country, and 
we are fearful''?
    It's kind of a sad commentary on where we have arrived.
    Mr. Peck. Senator Moynihan, at our design awards ceremony 
this last March, gave a marvelous speech about the need for us 
to balance security against our traditions as an open society. 
And we are trying hard, but I will tell you, often when our 
managers suggest that there are other ways of providing 
security, there is sort of a knee-jerk reaction that the best 
way to prepare for security is to close streets or to do away 
with all parking around the building, except that reserved for 
the agency. We find ourselves swimming upstream quite a lot of 
the time, trying to make the point that we think we can provide 
security in other ways.
    Senator Voinovich. All right.
    I would like to welcome Senator Baucus.
    Senator Major Peck has testified here this morning before 
us in regard to their projects that they would like to have 
authorized, and I just wondered, do you have any questions?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Mr. Chairman, I apologize for being late, 
but I want to commend Mr. Peck, and also the Regional Deputy, 
Paul Prouty.
    We have some Federal building issues in Montana, and I 
would like to say for the record for all to hear that Mr. Peck 
did a tremendous job. We had a somewhat delicate situation, 
trying to figure out where to place Federal buildings and what 
to do about rentals, relocation, and so forth. Often, people 
think that when the Government comes, my gosh, it's going to be 
bureaucratic and lengthy and not much is going to get done, and 
so on and so forth, some rancor, and just not a lot of good 
feelings around. But that was not the case at all here. Mr. 
Peck and his people looked at difficult situations and with 
dispatch and with courtesy and with wisdom, made everybody 
happy. I just want to thank you very, very much.
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you Mr. Chairman. I'm pleased that the subcommittee is having 
this hearing on the GSA public buildings program for fiscal year 2000. 
It is important that the subcommittee continue its oversight of this 
program and the timely authorization of worthy projects. There is a lot 
of money involved, and I'm sure the chairman will agree with me that we 
need to spend it very wisely.
    Let me also welcome Mr. Bob Peck back to the committee. He has been 
through some tough issues with this committee, Yet he has always been a 
constructive voice in seeking solutions, even when he had to go out of 
his way to do it.
    As an example, he and I were at a hearing in Helena, Montana almost 
two years ago to look at options for relocating the Federal building. 
As a result of his work on that issue, and that of his regional deputy, 
Paul Prouty, we managed to turn a difficult situation into a win for 
the city, the state and GSA.
    I look forward to his testimony and with that, Mr. Chairman, I am 
ready to proceed.
    Mr. Peck. Two quick things. One, I would like to say first 
that we had made some mistakes, and I was very proud that one 
of our best career Regional Directors, Paul Prouty, stated at a 
hearing, ``We messed up'' on at least two of the three issues. 
I must say, that's sort of good for the soul and it was good 
for everyone.
    The other thing that I will note is that Senator Baucus 
chaired a hearing in which--you know, I've worked here--he 
might have taken it in a different direction. Instead, he 
worked quite hard himself to make it a fair and open hearing, 
and not a roast.
    [Laughter.]
    Senator Baucus. It all worked out well. Thank you very 
much. And I share your concerns about the security dilemma. I 
don't know what the answer is; I don't think anybody has the 
answer to it. Society is changing, and I think a lot of it is 
caused by tremendous advances in technologies, including 
communications technologies which allow people to have virtual 
access to most any information, or to disseminate any 
information that he or she wishes. To me, it is kind of 
analogous to the trend that we have a lot of rights in this 
country, but it seems that we have fewer responsibilities. It's 
something that has happened and it's something that is caused, 
in my judgment, primarily by advances in technologies. It's 
something that just causes societies and cultures to change. It 
undermines the power of all institutions, wherever they may be. 
It's just something that is there and has to be recognized and 
dealt with in a very common-sense way, not being deceived by 
what is happening, but also being sensitive to people's needs.
    But I don't envy you at all, attempting to solve that one.
    Senator Voinovich. I have one other question that I would 
like to ask and I would appreciate your commenting on it if you 
feel comfortable in so doing.
    I don't know whether the members of the committee know this 
or not, but there is a bill that has been introduced called the 
Thad Cochran Federal Courts Budget Protection Act, which deals 
with an ongoing problem that we've had with the construction of 
Federal courthouses in this country, where the Office of 
Management and Budget does not include the cost of courthouses 
in their budget and kind of leaves it up in the air, and then 
leaves the Federal judiciary the task of trying to come 
directly to Congress to fund courthouses in this country. This 
legislation, according to my understanding, would bypass the 
Office of Management and Budget; it would bypass the 
authorization committees in the Senate and the House and go 
directly to Appropriations. I would be interested in knowing 
what your thoughts are in regard to that, if you would care to 
share them.
    Mr. Peck. I am prepared enough to know what I can say.
    In this case, the Administration clearly opposes bypassing 
OMB. And I have to say that, personally, I agree with the 
Administration position, too.
    I think it is also on the record already that I have said 
that I'm disappointed that for the past several years the 
Administration has not recommended an appropriation for 
courthouse projects--or, indeed, asked us to take money out of 
the Federal Buildings Fund, which I would not be happy about, 
for these large projects. But I have to say, this is one of 
those things, as we said in the military, that is ``above my 
pay grade.'' The decision about what priorities get funded and 
which don't I think is a decision that has to be made by the 
President. In this year, for example, the President's call was 
that priorities like social security and education outweighed 
the need for courthouses, among other programs. There were 
others that were disappointed, as well.
    My real concern about bypassing OMB is this. If the courts 
are able to present their own budget--and I know they present a 
Constitutional argument for being able to do that, and I will 
leave it to better Constitutional scholars than me to work that 
out--it would, in fact, bypass a useful check on just the basic 
question of what the budget should be for specific courthouse 
projects. And although the legislation says that GSA would 
provide an estimate to the courts, I think it's clear that the 
dynamics would change if the courts basically were presenting 
their own numbers.
    Finally, one thing that I hope is a ray of hope here. The 
Administration has also objected in the past that some of the 
courthouses don't utilize space as efficiently as they might; 
that judges might, for example, share courtrooms. It turns out 
that would give some savings if it were possible to do; not 
huge savings, I should note, but some small percent off a 
courthouse budget.
    This year, the courts--and we hope in time for this to be 
part of the OMB budget deliberations--have commissioned a 
courtroom utilization study and have committed to taking an 
honest look at how we might, in fact, squeeze some of the space 
out of some courthouses.
    So I am hoping that this combination will do something.
    Finally, I do have to note that it is sort of a shared 
problem here--OMB didn't recommend, or the Administration 
didn't recommend, a budget for court projects, but neither did 
the Appropriations Committees find room in the budget for the 
courthouse program.
    Finally, the other good note in the program, which I hope 
will not be lost sight of, is that the courts, much to their 
credit, have a 5-year standing set of priorities in their 
program. They used to just sort of send projects up here, and 
you didn't know which ones were most important. We have now all 
agreed that there are some that are real emergencies--the 
Brooklyn Courthouse has been the number one priority for a long 
time. We are working our way down a list, which I think allows 
you to assure other Members that this is a pretty well thought-
out program.
    Senator Voinovich. Well, my only comment is this, that 
there is a growing movement. I share the Administration's 
position that it should go to the Office of Management and 
Budget. On the other hand, I think that a message ought to be 
sent--perhaps from some of my colleagues on the other side of 
the aisle, and maybe from your shop and others--that we do have 
a Federal responsibility to provide money for courthouses in 
this country. It is generally a Federal priority, and there are 
other priorities that we might debate about whether or not this 
is a Federal responsibility or a State responsibility. My 
observation is that as Government grows and gets into more and 
more areas, that from my perspective as a Governor and former 
Mayor of the city of Cleveland and local government official, 
that are more properly the responsibility of State and local 
government, we're squeezing out having the resources to deal 
with programs and problems that are genuinely within the 
framework of the Federal Government.
    I would hope that in putting the budget together again for 
this coming year, some consideration would be given to 
providing some money for courthouses in this country. And 
indeed, it is a Federal responsibility.
    Senator Baucus. Mr. Chairman, if I might add, not only do 
we have responsibility to provide courthouses. I think we have 
responsibility, as the Senator from New York has been working 
on, to provide buildings that are appropriate to their 
function. You want some grandeur and respect and dignity in the 
construction of a building. I think that, certainly, the 
Senator from New York has led the way, and we all agree that we 
don't want just shacks; we want some buildings that are 
courthouses, because the Judiciary, as one of the three 
branches of Government, should have the dignity that it 
deserves.
    But I do think we all agree--at least I believe quite 
strongly--that the construction should be in some orderly 
process. We don't want palaces, but we want dignified 
courthouses. I understand the judges wanting to go straight to 
the President to get their courthouses, but I also understand 
the taxpayers' concerns, that they want common sense in 
courthouse construction.
    Believe me, as you know, Mr. Chairman, I and many other 
Senators have worked many years to try to get an orderly 
process--a fair, balanced, orderly process--in courthouse 
construction. It is a little disconcerting, I must say, because 
we thought we had agreement with the judges; and, lo and 
behold, they tried to end-run this committee, trying to get 
bills passed, end-running this committee. Frankly, it's not 
very judicial. It's very surprising that they would take these 
tactics.
    But I hope, as I say, that we will get some orderly process 
here.
    Senator Voinovich. I am sure that they have their process. 
I know I have spent time with representatives of the Federal 
group, and they have put together a priority list and so forth. 
It seems to me that it might be interesting to have them come 
before one of our committees and have them explain just what 
procedure they are using, so that we can have them share that 
with us, and then have that also kind of dovetail with what GSA 
is doing. At least you have a priority list today, and I can 
tell from my own experience with your agency that you are very 
fastidious. So I must say that they really put the microscope 
to projects before they engage in them.
    So there is some control, I would think, coming out of GSA 
today in terms of those projects. But it seems to me that we 
can accommodate your concerns, but at the same time provide 
money in the President's budget for courthouse construction in 
this country so that we don't end up with the situation that we 
have right now, because frustration is building up and people 
are looking to try to do an end-run.
    Are there any other questions you would like to ask, Mr. 
Peck?
    Mr. Peck. No, sir. I neglected to say that I have a formal 
statement that I would like to submit for the record.
    Senator Voinovich. Without objection, it will be included 
in the record.
    Mr. Peck. And I would like to thank you. We will take a 
transcript of your remarks and pass them on in the 
Administration.
    Senator Voinovich. We appreciate it. Well, thank you for 
coming this morning.
    Mr. Peck. Thank you, sir.
    Senator Voinovich. The committee is adjourned.
    [Whereupon, at 10:52 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Robert A. Peck, Commissioner, Public Buildings Service
    Mr. Chairman and Members of the committee, my name is Robert Peck 
and I am the Commissioner of GSA's Public Buildings Service. Thank you 
for inviting me here today to discuss the Fiscal Year 2000 capital 
program. Before I discuss this program I would like to give you an 
overview of our overall responsibilities and to update you on a number 
of Public Buildings Service initiatives that are changing the way we do 
business. PBS is one of the largest owner/operators of commercial-style 
real estate in the United States, managing more than 330 million square 
feet of space in office buildings, courthouses. laboratories and border 
stations. About half of the approximately one million federal employees 
we house are in 1,800 government-owned buildings; the other half-
million are in leased space in 6,500 privately-owned buildings. We have 
a presence in some 1,600 American communities. More than half of the 
government-owned buildings are older than fifty years; nearly a quarter 
are historic. We accordingly have a particularly significant need for 
funds for maintenance and renovation.
    Our funding comes principally--in FY 2000 it will come 
exclusively--from the rents that we charge to the more than 100 federal 
agencies, including the Congress, to which we provide workspace. Out of 
these rent revenues, deposited in the Federal Buildings Fund, we 
operate the government's buildings, pay our rents on privately owned 
space, provide security and underwrite our administrative costs. More 
than 90% of our $5 billion-plus annual spending is spent on contracts 
with private sector contractors. Since the Oklahoma City bombing, we 
have doubled our expenditures on building security, doubled the size of 
our uniformed force, and begun a thorough overhaul of our security 
organization to upgrade its capabilities and focus it on the violent 
threats we face.
    Our vision is to be recognized as the best public real estate 
organization in the world. We are managing in a more businesslike way, 
while continuing to carry out the public buildings program in accord 
with government contracting procedures and socioeconomic initiatives. 
We link our budgeting process to performance in tangible ways: regional 
budget allocations and individual bonuses are dependent on meeting 
certain improved performance targets. We have encouraged friendly 
competitions across out 11 regions to be the fastest, best and most 
cost-effective on nine key business performance measures that have 
quickly become known as the ``Big Nine.'' These efforts have resulted 
in:
    <bullet>  Our operating costs per square foot of office space in 
federal buildings are eleven percent below comparable private sector 
operating costs and in recent years our costs have continued to decline 
while private sector costs have risen.
    <bullet>  The average rents we pay in private sector buildings in 
nearly every major locality are at or below what private sector tenants 
pay.
    <bullet>  Our customer satisfaction scores, measured in hundreds of 
buildings by the Gallup organization, have increased significantly.
    <bullet>  Our utility costs are already about one-third below 
private sector comparables; GSA's energy consumption was reduced by 17% 
from 1985 to 1998, and will be reduced by an additional 3% by fiscal 
year 2000.
    In addition to bottom-line cost effectiveness, the agency's 
programs also involve broader goals that improve the benefits that 
federal buildings bring to the communities in which they are located:
    <bullet>  Our new buildings, whether courthouses or border 
stations, are outstanding examples of contemporary American 
architecture, making the buildings visible, positive government 
investments in their localities; Our First Impressions program is 
beginning to change the entries and lobbies of Federal building so that 
the public that we serve will feel welcome and safe in a professional 
environment. Our Good Neighbor and urban livability programs encourage 
partnerships with local communities to assure that Federal buildings 
are lively presences and that, by their siting and operation, support 
local development plans.
    Our Fiscal Year 2000 capital program will occur within the context 
of these and other overall agency initiatives. As in the past, we will 
give first priority to using any Federal Buildings Fund revenues not 
required for operating and fixed-expense obligations to finance our 
repairs and alterations and new construction programs. We have many old 
buildings that have never been modernized, many that have obsolete 
heating' air-conditioning and electrical systems that cannot support 
21st century operations and some that need seismic upgrades if they are 
to provide optimally safe workplaces for federal employees. If we do 
not properly maintain and modernize our buildings, the value and 
functionality of our inventory will decline.
    This past March, we submitted to Congress GSA's Fiscal Year 2000 
Capital Investment Program and highlights of the program include:
    <bullet>  7 prospectus-level design and new construction projects 
estimated at $92.2 million;
    <bullet>  13 prospectus-level repair and alteration projects 
budgeted at $201 million;
    <bullet>  13 prospectus-level repair and alteration designs for 
future projects at $17.7 million;
    <bullet>  An elevator program to repair existing elevators and 
escalators in 5 buildings lot $24.2 million; and
    <bullet>  Ongoing chlorofluorocarbon reduction and energy-saving 
programs, each budgeted at $20 million.
    Our Capital Investment and Leasing Program plays a key role in 
providing the necessary resources to maintain current real property 
assets and acquire new or replacement assets. The capital program 
supports several portfolio objectives:
    <bullet>  Enhancing the value of existing Federally-owned space and 
adapting it to the needs of today's productive workplace;
    <bullet>  Generating the Federal Buildings Fund income necessary, 
to support a limited construction program and our major renovation 
program;
    <bullet>  Minimizing the drain that unproductive assets place on 
the FBF; and
    <bullet>  Preserving the historical and cultural assets placed in 
GSA's trust.
    We consider three options when evaluating the requirements we 
receive from our client agencies: (1) repair and alteration of existing 
facilities, (2) the construction of new facilities, or (3) leasing 
space from the private sector.
    Generally speaking, we consider a number of factors when evaluating 
and assigning priorities to our capital projects:
    <bullet>  Economic justification in terms of financial return and 
present value cost;
    <bullet>  Project timing and execution;
    <bullet>  Physical urgency based on building conditions;
    <bullet>  Customer urgency: and
    <bullet>  Historic preservation and community considerations.
    With the limited resources of the Federal Buildings Fund and an 
increasingly aging inventory' we use a ranking process and several 
tools to help us determine resource allocation. For instance, we 
consider the following criteria when evaluating repair and alteration 
projects:
    <bullet>  Protecting the safety and health of tenants in owned and 
leased buildings;
    <bullet>  Altering vacant space in owned buildings to relocate 
client agencies from leased space into Government-owned space when 
available; and
    <bullet>  Completing planned phased modernizations (follow-on 
phases of multi-phased projects).
    When evaluating repair and alteration projects, we also closely 
examine proposed project scopes to ensure that they meet client agency 
requirements and facility needs. We work to determine if any possible 
changes in project scope can be made to realize cost savings, without 
jeopardizing the project's goals. Refining project scopes may free up 
funding for more projects.
    Additional criteria we consider when setting priorities for major 
repair and alteration needs in the context of our entire national 
portfolio include:
    <bullet>  Ability to award projects within the fiscal year;
    <bullet>  Urgency of a project's execution, such as imminent system 
failure and health and safety issues;
    <bullet>  Imminent nature of tenant requirements; and
    <bullet>  Assurance that the leasing of swing space is 
appropriately timed with project execution to avoid duplication of 
costs.
    The FY 2000 Treasury-Postal Service Conference Report recently 
approved by Congress provides funding for GSA's prospectus-level repair 
and alteration projects. We request that you authorize all pending 
prospectuses so that we can execute our program within the repair and 
alteration funding made available. That conference report also contains 
construction funding for the FDA consolidation in Montgomery County, 
MD, and five border stations. This year marks the 50th anniversary of 
the Federal Property and Administrative Services Act of 1949 (Property 
Act) and we have been studying the impact that additional asset 
management tools would have on the Government's management of real 
property. We are preparing legislation to amend the Property Act to 
help the Federal Government to manage its diverse portfolio of assets 
more effectively and we look forward to working with you on this 
initiative.
    Mr. Chairman, this concludes my formal statement. I would be glad 
to answer any questions you may have about our proposed Fiscal Year 
2000 Capital Investment Program.
                                 ______
                                 
  Responses by Robert Peck to Additional Questions from Senator Wyden
    Question 1. What happens if none of the sites considered for the 
Eugene Federal Courthouse is acceptable due to public opposition or 
costs associated with the sites?
    Response. In the unlikely event that none of the sites considered 
for the Eugene Federal Courthouse prove acceptable, the site selection 
and environmental study processes would start over. It could then take 
about 12 to 14 months to select another site. However, GSA does not 
anticipate that this will occur, because we believe we can 
satisfactorily resolve the recently expressed concerns of local elected 
of officials and portions of the community.
    The Regional Administrator's site selection decision was based upon 
thorough study, consideration of available facts, and the support of 
local officials. He could reconsider his decision if there is new 
material information provided that he did not take into account in the 
original decision.
    We are continuing our discussions with city officials and are 
currently awaiting additional information from them. At the same time, 
we have local real estate appraisers working on opinions of value for 
both the ``65th Avenue site'' originally selected and the ``City Hall 
site'' being proposed by the City.

    Question 2. If a Federal building sited in a community creates 
negative impacts such as substantial reduction in available parking, 
can GSA provide funds to mitigate the impact? If not, why not?
    Response. GSA is authorized to provide parking facilities only to 
the extent required for Federal use.
    GSA's Environmental Assessment studied the impact of the loss of 
parking spaces at the selected site and concluded that there is 
adequate parking available in the site's area to accommodate both 
displaced parking and courthouse related demand. However, free parking 
for the patrons of the 5th Avenue Market and other nearby businesses 
would no longer be available.
    As we have advised City officials and the community of Eugene 
during many of our discussions, Congress authorized GSA to construct a 
Federal courthouse in Eugene. The authorization specifically does not 
include public parking.

    Question 3. Are there different requirements for purchase (either 
through negotiations or condemnation) of privately owned and publicly 
owned land?
    Response. The acquisition process is the same but eligibility for 
additional benefits under the Uniform Relocation Act differ.
    GSA pays ``just compensation'' for the property it acquires. ``Just 
compensation'' is the fair market value of the property at the time of 
the acquisition. We contract with independent appraisers to determine 
the fair market value of acquired property. This process is followed 
for private and public landowners, whether acquisition is by 
negotiation or condemnation.
    The Uniform Relocation Assistance and Real Property Acquisition 
Policies Act of 1970, as amended in 1987, states that relocation 
benefits (above and beyond ``just compensation'') may be paid to a 
displaced person, business, farm, and nonprofit organization. A 
``state'' or a ``political subdivision of a State'' is not listed as 
eligible for relocation benefits.
                               __________
The Honorable George W. Voinovich, Chairman
Subcommittee on Transportation and Infrastructure
Committee on Environment and Public Works
U.S. Senate
Hart Senate Office Building,
Washington, DC 20510
    Re: Statement for September 28, 1999, Public Hearing on the FY2000 
Budget Request for General Services Administration: Food and Drug 
Administration Consolidation
Dear Senator Voinovich: I am enclosing one copy of my written statement 
on the above subjects for inclusion in the record of your 
Subcommittee's September 28, 1999, public hearing on the Fiscal Year 
2000 Budget Request for the General Services Administration.
    Please make additional copies of this statement and distribute them 
appropriately. I am presenting this statement as a private individual.
    I am attaching to the following page a disc formatted in DOS Word 
Perfect that contains a copy of my statement.
    Thank you.
    Sincerely yours,
    Bernard H. Berne, M.D., Ph.D.
                               __________
    Statement of Bernard H. Berne, M.D., PH.D., Arlington, Virginia
                          summary of statement
    I am a resident of Arlington, Virginia. I serve the Food and Drug 
Administration (FDA) as a Medical Officer and as a reviewer medical 
device approval applications. I am submitting this statement as a 
private individual and not as a representative of FDA or of any other 
organization.
    The General Services Administration's (GSA's) Fiscal Year 2000 
Capital Investment Program requested funds to begin construction of an 
FDA consolidation in Montgomery County, Maryland. Congress has 
appropriated $35,000,000 to GSA in the Treasury and General Government 
Appropriations Act, 2000 (P.L. 104-58, Sept. 29, 1999)(formerly H.R. 
2490), that GSA may use to support this wasteful and environmentally 
unsound project. GSA plans to construct this facility in suburban White 
Oak, Maryland.
    The following points summarize the reasons to oppose the White Oak 
FDA consolidation. They also provide the reasons for your committee to 
give immediate and intensive oversight to GSA's activities relating to 
the FDA's consolidation:
    <bullet>  Congress has not approved a prospectus for any part of 
the FDA consolidation. GSA intends to use the funds appropriated in 
P.L. 104-58 for construction purposes without ever submitting a 
prospectus to Congress.
    <bullet>  GSA's intended actions will violate a provision in P.L. 
104-58 that prohibits the use of these funds for construction purposes 
in the absence of an approved prospectus. These actions will be 
illegal.
    <bullet>  FDA does not need to consolidate its facilities.
    <bullet>  The FDA consolidated facility at White Oak will be a 
$500,000,000 white elephant. It will be a country club that will have a 
golf course adjacent to FDA's offices.
    <bullet>  The FDA consolidation is nothing more than a pork barrel 
project for Maryland.
    <bullet>  Nearly all current FDA buildings are in good condition. 
Few are unsatisfactory.
    <bullet>  FDA offices that work together are already close to each 
other. Few FDA employees need to travel long distances between work 
sites. There is now no clear need to expend Federal funds to 
consolidate FDA.
    <bullet>  Many FDA employees work at home part of the time. Few 
travel between work sites. An FDA consolidation will not increase FDA's 
ability to approve new drugs and medical devices in a timely manner.
    <bullet>  The Government does not save money by building a new 
Federal facility rather than by leasing. The Federal Government gains 
income tax revenues from owners of leased buildings. It receives 
nothing from federally owned buildings.
    <bullet>  An FDA consolidation at White Oak is environmentally 
unsound.
    <bullet>  White Oak is outside of the Beltway and is three miles 
from the nearest Metrorail station.
    <bullet>  Many FDA buildings, including the largest ones, are now 
near Metro stations. Metro will lose riders if FDA consolidates at 
White Oak.
    <bullet>  Public transportation to White Oak is and will be 
inadequate. Few FDA workers will take buses to White Oak. For economic 
reasons, buses will be infrequent.
    <bullet>  Roads and highways near White Oak are already heavily 
congested. They don't need more traffic and air pollution. Nearly all 
FDA workers would drive to work at White Oak.
    <bullet>  Many FDA workers would drive to White Oak on the 
congested Capital Beltway during rush hour.
    <bullet>  An FDA consolidation at White Oak would replace over 125 
acres of open space with a sprawling campus filled with buildings and 
large paved parking lots.
    <bullet>  An FDA consolidation at White Oak will accelerate urban 
sprawl. If FDA consolidates at White Oak, other Federal agencies will 
follow. This will eventually fill a 750-acre Federal property.
    <bullet>  GSA's White Oak property is heavily forested. An FDA 
consolidation at White Oak would begin the destruction of this 
woodland, which could otherwise be a national, regional, or local park.
    <bullet>  There are a number of federally owned sites near Metro 
stations that are available for the FDA consolidation. These include 
the Southeast Federal Center and the west campus of St. Elizabeth's 
Hospital in D.C. and the Suitland Federal Center in Prince George's 
County, Maryland. GSA refused to evaluate any of these.
    <bullet>  An FDA consolidation at White Oak would hurt the District 
of Columbia.
    <bullet>  The Council of the District of Columbia has approved a 
resolution that objects to GSA's selection of the White Oak site and 
that asks GSA to work with D.C. officials to identify a suitable site 
in D.C., consistent with Federal laws and executive orders.
    <bullet>  The White Oak facility is one of two FDA facilities that 
would consolidate in Maryland. The two facilities would together remove 
over 900 Federal jobs from D.C.
    <bullet>  D.C. has lost many Federal jobs in recent years. This 
project will accelerate such losses. Further, it will encourage other 
Federal agencies to locate outside of D.C.
    <bullet>  Many FDA workers now live in D.C. and take Metro to work. 
These will leave D.C. if FDA consolidates at White Oak.
    <bullet>  GSA violated Federal laws and policies when it selected 
the White Oak site.
    <bullet>  Executive Order 12072, which President Clinton has 
reaffirmed, requires Federal agencies to give preference to cities when 
locating their facilities in urban areas, such as the Washington 
Metropolitan Area.
    <bullet>  GSA refused to evaluate any potential sites in any city.
    <bullet>  GSA has refused to consult with District of Columbia 
officials regarding the availability of suitable sites within the 
District. This violated Executive Order 12072 and the Federal Buildings 
Cooperative Use Act, which require such consultation with local city 
officials.
    <bullet>  Washington, D.C. has a number of suitable vacant 
federally owned sites, such as the Southeast Federal Center and the 
campus of St. Elizabeth's Hospital. Unlike White Oak, these are near 
Metro stations. GSA has refused to evaluate these sites.
    <bullet>  GSA informed D.C. officials that the Southeast Federal 
Center can not accommodate the FDA consolidation. This is untrue. GSA's 
plans for The Southeast Federal Center anticipate the construction of 
nearly twice the amount of occupiable space than FDA needs.
    <bullet>  GSA incorrectly informed the D.C. officials and the 
public that Congress had mandated FDA to consolidate in Montgomery 
County. This was a misrepresentation of fact. There is no such mandate.
    <bullet>  Federal laws promote development in economically 
distressed areas, such as Southeast D.C. However, White Oak is an 
affluent residential suburb in one of the richest Counties in the 
Nation. White Oak does not need or deserve Federal assistance to help 
its economy.
    <bullet>  The Environmental Protection Agency has informed GSA that 
GSA did not adequately evaluate alternative sites on public and private 
lands when it prepared its Environmental Impact Statement for FDA 
consolidation. GSA violated the National Environmental Policy Act 
(NEPA) when it selected the White Oak site.
    <bullet>  GSA did not attempt to acquire properties in D.C. by 
donation. The FDA Revitalization Act (P.L. 101-635) requires such 
attempts, since it is more cost-effective for the government to acquire 
properties by donation than by using existing Federal property.
    In 1995, Congress rescinded all construction funds for FDA's 
consolidated facility, which the General Services Administration (GSA) 
was planning to build in Clarksburg, Montgomery County, Maryland. 
Following this rescission, in 1997, GSA selected the former Naval 
Surface Warfare Center (NSWC) in White Oak, Montgomery County, 
Maryland, as its preferred alternative for the major FDA consolidation.
    GSA presently has no funds legally available to construct the White 
Oak facility. P.L. 104-58 appropriated no prospectus-exempt 
construction funds for the facility.
    White Oak is a very poor location for the FDA facility. Metrorail 
is three miles away. Area roads are highly congested. Public 
transportation to the NSWC is infrequent. No other major Federal 
facility is nearby.
    GSA and FDA are planning a country club in White Oak's affluent 
suburbs. FDA's 130-acre campus will have a visitor center and other 
amenities. Adjacent Federal property will contain an ``executive'' golf 
course, a golf club house, and a woodland. Congress must stop this 
extravaganza.
    The Southeast Federal Center in Washington, D.C. is now available 
for a major Federal headquarters. Adjacent to a Metro station and close 
to the Capitol, this site appears ideal for FDA's facility. The site 
has sufficient planned density to accommodate all of FDA's space 
requirements.
    In addition, according to District of Columbia planning officials, 
the campus of St. Elizabeth's Hospital in the Southeast quadrant of the 
District of Columbia appears to have more than enough developable space 
available than the 130 acres that FDA plans to utilize at White Oak. 
The large St. Elizabeth's Hospital site is publicly owned and is 
adjacent to a Metro station that will open next year.
    Two Executive Orders and the policies of the National Capital 
Planning Commission (NCPC) require that GSA and FDA give the Southeast 
Federal Center and the St. Elizabeth's Hospital campus and other sites 
in the District of Columbia preference over the White Oak site.
    However, actions and requests by Conference Committees on 
Appropriations made a number of years ago have encouraged GSA to only 
evaluate sites for the consolidation that are located in Montgomery 
County, Maryland. Perhaps for political reasons, GSA has consistently 
refused all requests to seriously evaluate any sites for the 
consolidation that are located in the District. During 1999, the 
Corporation Counsel and the Council of the Government of the District 
of Columbia and the Council of the District of Columbia have both made 
such requests.
    In response to these requests, GSA has informed District officials 
and the public in writing that Congress has ``mandated'' that FDA 
consolidate in Maryland. GSA is incorrect.
    GSA's actions are improper. No legislation presently exists that 
requires FDA to consolidate in Montgomery County, Maryland, or in any 
other specific location.
    The legislation authorizing FDA's consolidation (P.L. 101-635) does 
not specify any location for the consolidated facility. The only legal 
provisions that have ever required FDA to locate any such facility in 
Montgomery County were contained in appropriation laws that have now 
been superseded.
    In 1995, Congress rescinded all funds previously appropriated to 
construct the Montgomery County facility. The rescission therefore 
removed any legislative requirement that FDA consolidate in that County 
or in any other specific location. Congress has appropriated no funds 
to support the construction of FDA's major consolidated facility since 
the 1995 rescission. No appropriation laws enacted after the 1995 
rescission have actually made any funds available to construct any FDA 
building project.
    The President's proposed Fiscal Year 2000 Budget for GSA requested 
that a total of $136,365,000 be made available to GSA's Federal 
Buildings Fund through two appropriations in the Treasury, Postal 
Services and General Government Appropriations Act, 2000. GSA would 
have used funds from both appropriations to award contracts to begin 
construction of an FDA consolidation at White Oak, Montgomery County, 
Maryland.
    The President's budget requested on p. 965 that, of the above 
total, $55,915,000 would have been made available to GSA on October 1, 
1999. An additional $80,450,000, discussed on p. 966, would have become 
available to GSA on October 1, 2000.
    The President's budget request did not provide a estimate of the 
maximum or total cost for the FDA consolidation. Previous FDA and GSA 
estimates for the total cost have ranged between $500 million and $1.2 
billion.
    The budget proposal would allow GSA to begin one of the most costly 
and unjustified Federal buildings projects in recent years. Because the 
project lacks an approved prospectus, its eventual cost might well be 
astronomical.
    The Treasury and General Government Appropriations Act, 2000 (Pub. 
L 104-58) provides $35,000,000 to GSA's Public Buildings Fund for an 
FDA consolidation in Montgomery County, Maryland. This was $101,365,000 
less than the $136,365,000 than the amount that the President's budget 
had requested.
    Neither the language of P.L. 104-58, the conference report for H.R. 
2490 (H.Rept. 106-319, Sept. 14, 1999) nor the committee reports for 
original House and Senate versions of the bill (H.R. 2490, accompanied 
by H.Rept. 106-231, July 13, 1999; S. 1282, accompanied by S. Rept. 
106-87, June 24, 1997) discuss the reasons for the $35,000,000 
appropriation, which appears in a list of new GSA construction projects 
without any explanation.
    Further, neither the President's Budget, P.L. 104-58, nor any 
versions of the bills or committee reports associated with P.L. 104-58, 
identify White Oak as the location for the Montgomery County 
consolidation or the project's estimated maximum cost. Many Members of 
Congress are unaware of the location and GSA's estimated cost for this 
project.
    It is important for your committee to recognize that P.L. 104-58 
contains the following provision (H.R. 2490, Enrolled Bill, p. 22):
    ``Provided further, That funds available to the General Services 
Administration shall not be available for expenses in connection with 
any construction, repair, alteration, or acquisition project for which 
a prospectus, if required by the Public Buildings Act of 1959, as 
amended, has not been approved, except that necessary funds may be 
expended for each project for required expenses in connection with the 
development of a proposed prospectus.''
    GSA has never submitted a prospectus to Congress that describes any 
part of the FDA consolidation. Your committee has not passed any 
resolution that has approved any such prospectus. Therefore, the funds 
appropriated in P.L. 104-58 may only be expended ``for required 
expenses in connection with the development of a proposed prospectus''
    Your committee needs to immediately apply its jurisdiction under 
the Public Buildings Act of 1959 (P.L. 86-249) to this project. You 
need to enforce Section 7 of the Public Buildings Act, which requires 
your committee to ``insure the equitable distribution of public 
buildings throughout the United States with due regard for the 
comparative urgency of need for such buildings''.
    To accomplish this goal, your committee must require that a 
prospectus be approved for the entire FDA consolidation before GSA 
awards contracts for any construction activities for FDA at White Oak 
or at any other location. The Washington Metropolitan Area contains a 
number of localities and jurisdictions (such as the District of 
Columbia) that have a far greater urgency of need for public buildings 
than does Montgomery County in general and White Oak in particular.
    Your committee must assure that GSA adheres to the limiting 
provision in P.L. 104-58 that prohibits GSA from constructing or 
renovating any buildings at White Oak with the funds appropriated in 
that Act.
    Past Treasury, Postal Service, and General Government 
Appropriations Acts, such as P.L. 102-141 (Oct. 28, 1991) contained 
provisions which specifically exempted the funds appropriated therein 
for the FDA consolidation in Montgomery County from the prospectus 
requirement. In 1995, P.L. 104-19 (July 27, 1995) rescinded all 
prospectus-exempt construction funds previously appropriated for this 
project. P.L. 104-58 contains no exemption from the prospectus 
requirement.
    GSA officials and attorneys incorrectly claim that authorizing 
legislation for this project somehow permits GSA to construct this 
facility without receiving your committee's approval of a prospectus.
    It is important for your committee to recognize that the FDA 
consolidation's authorizing legislation (FDA Revitalization Act, P.L. 
101-635, Nov. 28, 1990) contains no provisions that exempt any FDA 
consolidated facility from the requirements of the Public Buildings Act 
of 1959.
    P.L. 101-635 authorizes the Secretary of Health and Human Services 
(HHS), in consultation with the GSA Administrator, to award contracts 
to acquire and construct a single consolidated headquarters facility 
for FDA. P.L. 101-635 does not authorize the GSA Administrator to do 
anything in regard to this facility except to consult with the 
Secretary of HHS.
    Because of its specific intent and language, P.L. 101-635 prohibits 
GSA from awarding contracts to construct any FDA ``consolidated'' 
facility under the law's authorization. The GSA Administrator can only 
construct the facility under the authority of the Public Buildings Act 
of 1959. Under the Public Buildings Act, as amended, your committee 
must approve project prospectuses before Congress can appropriate any 
construction funds to GSA for projects whose cost exceeds $1.5 million.
    Further, P.L. 101-635 does not authorize the construction of more 
than one consolidated facility. Despite this, GSA has incorrectly 
claimed that P.L. 101-635 has authorized it to construct three separate 
``consolidated'' FDA facilities at three different locations.
    GSA has constructed one of these facilities in Beltsville, Prince 
George's County, Maryland, has begun to construct a second in College 
Park, Prince George's County, Maryland, and is planning a build a third 
in White Oak, Montgomery County, Maryland. GSA's multiple FDA 
``consolidations'' have contradicted the intent and authorization of 
P.L. 101-635 and have made it largely irrelevant.
    It is possible that Congress can appropriate funds to the Secretary 
of HHS to build a consolidated FDA facility in the absence of a 
prospectus. However, the project clearly requires prospectus approval 
before Congress can appropriate funds to GSA to begin construction.
    On September 26, 1996, the committee on Transportation and 
Infrastructure of the U.S. House of Representatives directed GSA to 
submit to Congress a report pursuant to Section 11(b) of the Public 
Buildings Act of 1959 report that describes the FDA consolidation in 
Suburban Maryland. Despite this directive, GSA has never submitted any 
such report.
    If GSA ever submits the 11(b) report, your committee will need to 
treat it as a prospectus. Your committee should allow public witnesses 
to testify on the 11(b) report or on any prospectus.
    Your committee needs to take immediate action to assure that GSA 
does not use the funds appropriated in P.L. 104-58 to begin 
construction of the project.
    Any such construction would be illegal. Further, it would begin 
consolidating FDA at a location and cost which might not meet with your 
committee's approval.
    Your committee also needs to assure that no funds are ever again 
appropriated in a manner that would allow GSA to construct this 
facility before your committee approves a prospectus.
    GSA has already begun construction in 1998 on an administrative and 
laboratory facility for FDA's Center for Food Safety and Applied 
Nutrition (CFSAN) in College Park, Prince George's County, Maryland. 
This construction is illegal.
    The CFSAN/CVM facility will not be a component of the major FDA 
consolidated facility. It is therefore not authorized by the FDA 
Revitalization Act. Despite this, GSA has stated that this project is 
fully funded.
    GSA is not correct. The FY-1996 Treasury Appropriations Act (P.L. 
104-52) appropriated funds for an FDA facility in Prince George's 
County, Maryland. GSA plans to use these funds for the CFSAN project.
    However, P.L. 104-52 contained a provision that limited GSA's use 
of these funds to the preparation of a proposed prospectus for the 
project. This provision is identical to the one that P.L. 104-58 
contains. Despite this provision, GSA has already used these funds for 
site acquisition and construction.
    GSA has never submitted a prospectus for the Prince George's County 
CFSAN facility, and your committee has never approved one. This 
facility, which no legislation authorizes, would relocate about 800 FDA 
employees from downtown Washington, DC, to a location in suburban 
Maryland.
    Your committee needs to take immediate action to prevent GSA from 
expending any further funds from P.L. 104-52 to construct this project 
and to require GSA to submit a prospectus describing the CFSAN 
facility. GSA is violating the law by use these funds in the absence of 
an approved prospectus. It is already misusing appropriated funds.
    The Committee on Transportation and Infrastructure of the House of 
Representatives is already concerned about GSA's improper actions 
regarding the FDA consolidation. On April 15, 1999, Congressman Bob 
Franks, Chairman of the Subcommittee on Economic Development, Public 
Buildings, Hazardous Materials and Pipeline Transportation of that 
committee sent a letter to the Committee on Appropriations of the House 
of Representatives that objected to GSA's activities regarding the FDA 
consolidation. Congressman Frank's letter noted that GSA had not 
complied with committee's 1996 11(b) resolution, which by that time was 
2 years overdue (see below).
    GSA has submitted a legal opinion to the House Committee on 
Transportation and Infrastructure that claims that the FDA 
Revitalization Act authorizes GSA to construct the CFSAN facility 
without receiving prior approval of a prospectus. As explained above, 
and further elaborated below, GSA's legal opinion is misleading and 
incorrect.
    I therefore ask the Senate Committee on Environment and Public 
Works to take the following actions:
    1. Please immediately implement your oversight responsibilities 
under the Public Buildings Act to assure that GSA does not use any of 
the funds appropriated in P.L. 104-58 for any ``expenses in connection 
with any construction'' of the proposed FDA consolidation at White Oak, 
Montgomery County, Maryland.
    2. Please assure that GSA will fully comply with Executive Order 
No. 12072 (Aug. 16, 1978, 42 Federal Register 36869), Executive Order 
13006 (May 24, 1996, 61 F.R. 26071), and NCPC regional policies and 
recommendations on development and distribution of Federal employment 
in the National Capital Region, consistent with the National Capital 
Planning Act of 1992.
    All of the above presently require GSA to give preference for the 
FDA consolidation to a site in the District of Columbia, such as the 
Southeast Federal Center and the St. Elizabeth Hospital site, rather 
than to sites in suburban Montgomery and Prince George's Counties, 
Maryland. The Executive Orders further require GSA and FDA to economize 
on their space requirements to assure compliance with their provisions. 
GSA is not presently doing this.
    3. Please consider any GSA 11(b) report on the FDA consolidation to 
be a prospectus, allow public witnesses to testify on the report, and 
take a vote on a resolution to approve or disapprove a project 
prospectus.
    4. Please conduct a public hearing on the proposed FDA 
consolidation. As part of this hearing, please consider the 
desirability of directing GSA to identify and to develop a prospectus 
for the FDA consolidation at a site that is available and suitable in 
Washington, D.C., or within 2,500 linear feet of an existing Metro 
Station in Maryland or in Northern Virginia.
    5. Please take appropriate action to prevent GSA from further 
misusing Federal funds by continuing its construction of FDA's CFSAN 
building in College Park, Prince George's County, Maryland.
    6. Please ask the General Accounting Office to appraise the value 
of the White Oak site and to estimate the revenues that the Government 
can gain from a sale of the site.
                               __________
                        explanation of requests
    1. Please immediately implement your oversight responsibilities 
under the Public Buildings Act to assure that GSA does not use any of 
the funds appropriated in P.L. 104-58 for any ``expenses in connection 
with any construction'' of GSA's proposed FDA consolidation at White 
Oak, Montgomery County, Maryland.
    As described above, H.R. 2490 contains a provision that prohibits 
GSA from utilizing the $35,000,000 appropriated therein for any 
expenses relating to construction of this project. GSA can only legally 
use these funds in connection with the development of a proposed 
prospectus for an FDA consolidation in Montgomery County.
    P.L. 104-58 does not require that GSA expend any funds for the 
development of a proposed prospectus for any FDA consolidation. The 
limiting provision specifically states that GSA ``may'' use these funds 
for such a purpose.
    The Federal Property and Administrative Services Act of 1949 and 
the Public Buildings Act of 1959, as amended, authorize the 
Administrator of GSA to acquire property for and to construct public 
buildings. Section 2 of the Public Buildings Act requires the GSA 
Administrator to ``construct such public building in accordance with 
this Act''.
    Section 7 of the Public Buildings Act, as amended, prohibits the 
appropriation of funds to construct any public building involving an 
expenditure in excess of $1,500,000 unless your committee has approved 
a resolution permitting such an appropriation. Section 7 further 
states: ``For the purposes of securing consideration of such approval, 
the Administrator shall submit to Congress a prospectus of the proposed 
facility, including, but not limited to . . . .'' The prospectuses must 
describe the project and its estimated maximum costs.
    The GSA Administrator has never submitted a prospectus describing 
the FDA consolidation. Therefore, GSA cannot construct the FDA 
consolidation unless appropriations legislation contains a provision 
that exempts the project the Public Buildings Act. P.L. 104-58 contains 
no such exemption.
    The Committee on Transportation and Infrastructure of the U.S. 
House of Representatives has repeatedly expressed its concerns 
regarding GSA'S unauthorized activities regarding the FDA 
consolidation. In 1996, the Economic Development and Public Buildings 
Subcommittee of this Committee held a public hearing on the FDA 
consolidation (H. Hrg. 104-71, May 23, 1996, ``Naming Bills and the 
Consolidation of the Food and Drug Administration Headquarters in 
Maryland''). Following this hearing, the full committee approved the 
following resolution on September 27, 1996:
                               __________
   committee resolution--food and drug administration consolidation--
                           suburban maryland
    RESOLVED BY THE COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE IN 
THE U.S. HOUSE OF REPRESENTATIVES, That pursuant to Section 11(b) of 
the Public Buildings Act of 1959 (40 U.S.C. Sec.  610), the 
Administrator of General Services shall investigate the feasibility and 
need to construct or acquire a facility for the consolidation of the 
Food and Drug Administration in Suburban Maryland, and submit a report 
to Congress within 120 days.''
    GSA did not submit this report within 120 days. On April 15, 1999, 
Congressman Bob Franks, Chairman of the Subcommittee on Economic 
Development, Public Buildings, Hazardous Materials and Pipeline 
Transportation (Rick Barnett, Clerk) of the Committee on Transportation 
and Infrastructure, U.S. House of Representatives, sent a letter to 
Congressman Jim Kolbe, Chairman, Subcommittee on Treasury, Postal 
Service, General Government, Committee on Appropriations, U.S. House of 
Representatives, that stated:
    ``. . . . On September 27, 1996, the Committee on Transportation 
and Infrastructure approved an 11-b resolution directing the 
Administrator of General Services to conduct a study on the feasibility 
and need to construct or acquire a facility for the consolidation of 
the FDA in suburban Maryland, and submit a report in 120 days. That 
report is now 2 years late.
    I believe that Congress has the right and obligation to completely 
understand the reasons for FDA's efforts to consolidate. This 
committee, with jurisdiction over the Public Buildings Act of 1959, has 
never had the courtesy of receiving any formal document from GSA or the 
FDA about their plans, yet GSA has provided the bulk of the funding for 
facilities under construction.''
    Your committee needs to also exercise its jurisdiction over this 
project as part of its responsibilities under the Public Buildings Act. 
The appropriation in P.L. 104-58 for the FDA consolidation originated 
in the Senate version of the Act (S.1282).
    Some members of the Senate recognize that this appropriation is 
wasteful and unjustified. Senator John McCain placed the appropriation 
for the FDA consolidation in his list of ``objectionable provisions'' 
in S. 1282 that the Senate ordered to be printed in the Congressional 
Record (Cong. Record, S8046, July 1, 1999). In his accompanying 
statement to the Senate, Senator McCain stated that the projects in his 
list were of low priority and were wasteful and unnecessary. He 
repeated this statement and listing when the Senate debated the 
Conference Report for H.R. 2490 (Cong. Record S10966-S10977, Sept. 16, 
1999).
    Provisions in the 1992, 1993 and 1995 Treasury, Postal Service, and 
General Government Appropriations Acts (P.L. 102-141, P.L. 102-393, and 
P.L. 103-329) specifically permitted GSA to use the funds made 
available in those Acts for the FDA consolidation and for certain other 
projects, even though no prospectuses for these projects had been 
approved. These provisions released the GSA Administrator from his 
obligation to comply with the Public Buildings Act of 1959 when 
constructing these buildings using the funds appropriated in these 
Acts.
    However, the 1995 Rescission Act (P.L. 104-19) rescinded all 
construction and site acquisition funds for the Montgomery County, 
Maryland, phase of the FDA consolidation. Further, Congress did not 
appropriate sufficient funds in the appropriations acts prior to 1995 
to allow GSA to complete FDA's CFSAN facility in Prince George's 
County. Therefore, these provisions no longer affect the FDA 
consolidated facility that GSA is planning to build in Montgomery 
County, Maryland, and the CFSAN facility that GSA is presently 
constructing in College Park, Prince George's County, Maryland.
    Members of your committee must assure that such provisions do not 
appear in any future Appropriations Acts. Such provisions make a 
mockery of the Public Buildings Act. The Fiscal Year 1996, 1997, 1998, 
1999, and 2000 Treasury, Postal Service, and General Government 
Appropriations Acts (including P.L. 104-52 and Pub.L. 104-208) provided 
no exemptions to the prospectus requirement. A provision in each of 
these Acts states that any appropriated funds shall not be available 
for the construction, repair, alteration, and acquisition of any large 
public buildings project if a prospectus for the project had not been 
approved before the Act has become law. The Treasury and General 
Government Appropriations Act, 2000 (P.L. 104-58) also contains this 
provision. GSA officials, a GSA attorney, and some Members of Congress 
contend that specific authorizing legislation exempted the FDA 
consolidation from the prospectus requirement. This contention is 
incorrect. The FDA Revitalization Act (P.L. 101-635), which authorized 
the consolidation, contains no provision which exempts the project from 
the Federal Buildings Act.
    Further, P.L. 101-635 amended the Federal Food, Drug, and Cosmetics 
Act. Because it was such an amendment, P.L. 101-635 specifically 
authorized the Secretary of Health and Human Services (HHS), in 
consultation with the Administrator of GSA, to acquire property for and 
to construct a consolidated facility for an FDA's headquarters facility 
and to enter into contracts for such activities.
    P.L. 101-635 did not authorize the GSA Administrator to take any 
action on the project except to consult with the HHS Secretary. The 
language of the law makes this clear.
    The reference and the language of the authorizing legislation is as 
follows:
    Food and Drug Administration Revitalization Act (P.L. 101-635, Nov. 
28, 1990) (104 Stat. 4583 et seq.)(21 USC 379b [Consolidated 
Administrative and Laboratory Facility])
    ``Title I--Consolidated Administrative and Laboratory Facility''
    Sec. 101. Consolidated Administrative and Laboratory Facility. 
Chapter VII (21 U.S.C. 371 et seq.) is amended by adding at the end 
thereof the following new section:
    ``Sec. 710. Consolidated Administrative and Laboratory Facility.
    ``(a) Authority.--The Secretary, in consultation with the 
Administrator of the General Services Administration, shall enter into 
contracts for the design, construction, and operation of a consolidated 
Food and Drug Administration administrative and laboratory facility.
    ``(b) Awarding of Contract.--The Secretary shall solicit contract 
proposals under subsection (a) from interested parties. In awarding 
contracts under such subsection, the Secretary shall review such 
proposals and give priority to those alternatives . . . . . .''
    ``(c) Donations.--In carrying out this section, the Secretary shall 
have the power, in connection with real property, buildings, and 
facilities, to accept on behalf of the Food and Drug Administration 
gifts or donations of services or property, real or personal, as the 
Secretary determines to be necessary.
    ``(d) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $100,000,000 for fiscal year 
1991, and such sums as may be necessary for each of the subsequent 
fiscal years, to remain available until expended.''
    It is therefore clear that the FDA Revitalization Act authorizes 
appropriations for the Secretary of HHS to ``enter into contracts'' and 
perform other activities relating to ``a'' consolidated FDA facility. 
It is clear that P.L. 101-635 does not authorize the GSA Administrator 
to construct the facility or to take any action on the consolidation 
except to consult with the HHS Secretary. It is further clear that P.L. 
101-635 does not authorize the appropriation of any funds to permit the 
construction more than one FDA consolidated facility.
    Most importantly, the Act does not authorize the appropriation of 
any funds that GSA may use to support any of its activities, except for 
consultation with the HHS Secretary. P.L. 101-635 clearly does not 
authorize any appropriations that GSA can use to acquire property or to 
award construction contracts.
    Despite the language of P.L. 101-635, several Treasury, Postal 
Services and General Government Appropriations Acts have in the past 
made funds available to the GSA's Federal Buildings Fund so that GSA 
could award contracts to construct an FDA consolidation in Montgomery 
County, Maryland. It is important to recognize that Congress rescinded 
these funds in 1995 because, among other reasons, the project lacked an 
approved prospectus and because GSA was proceeding without proper 
Congressional authorization or oversight.
    It is also important to understand that legislation has already 
recognized that P.L. 101-635 does not authorize GSA to utilize any 
appropriated funds to award contracts for the FDA consolidation and 
does not authorize the appropriation of funds to GSA without the prior 
approval of a prospectus. GSA officials and attorneys do not 
acknowledge the existence of this legislation in any of their written 
or oral communications to your committee or to others.
    Soon after Congress enacted P.L. 101-635 in 1990, it enacted the 
Treasury, Postal Services and General Government Appropriations Act, 
1992 (P.L. 102-141, Oct. 28, 1991). This Act made available to GSA's 
Federal Buildings Fund: ``New Construction:. . . Maryland: Montgomery 
and Prince George's Counties, Food and Drug Administration, 
consolidation, site acquisition, planning and design, construction, 
$200,000,000''
    P.L. 102-141 contains the following provision:
    ``Provided further, That none of the funds available to the General 
Services Administration, except for . . . . . the Maryland, Food and 
Drug consolidation, . . . shall be available for expenses in connection 
with any construction, repair, alteration, and acquisition project for 
which a prospectus, if required by the Public Buildings Act of 1959, as 
amended, has not been approved, except that necessary funds may be 
expended for each project for required expenses in connection with the 
development of a proposed prospectus.''
    Thus, the first law that appropriated funds to GSA for the FDA 
consolidation specifically exempted these funds from the provisions of 
the Public Buildings Act and its prospectus approval requirement. 
Congress later placed similar exemptions in appropriations to GSA for 
the FDA consolidation in the Treasury, Postal Services, and General 
Government Appropriations Acts of 1994 (P.L. 103-123) and 1995 (P.L. 
103-329).
    Congress would not have included any of these provisions in 
appropriations legislation if the FDA Revitalization Act had authorized 
GSA to expend any funds appropriated for the consolidation or had 
exempted appropriations to GSA's Federal Buildings Fund from the 
prospectus approval requirement. It is therefore clear that Congress 
has already recognized that prior prospectus approval is required 
before it can make any appropriations to GSA for this project unless 
the appropriations legislation specifically exempts the project from 
the prospectus requirement.
    The project cannot be exempt from the prospectus requirements of 
the Public Buildings Act unless Congress appropriates funds to HHS to 
construct the facility or unless Congress specifically exempts a GSA 
appropriation from the requirements of the Public Buildings Act.
    Members of your committee must oppose the enactment of any bills 
which appropriate funds for the FDA consolidation or for any other 
major project if your committee has not yet approved a prospectus for 
the project. Such bills give GSA blank checks to construct costly pork 
barrel projects without adequate oversight by your committee. They 
defeat the purpose of the Public Buildings Act of 1959. Your committee 
needs to assure proper planning, site selection, and Congressional 
oversight of the FDA consolidation as required by the Public Buildings 
Act of 1959. You need to assure that GSA does not expend any funds to 
construct any phase of the FDA consolidation until your committee has 
approved a prospectus that describes all phases of the consolidation.
    This prospectus needs to contain plans to consolidate all of FDA's 
components, including CFSAN, into a single facility at a single 
location. Such a project will comply with the FDA Revitalization Act 
(P.L. 101-635).
    GSA's present plans are not in compliance with the FDA 
Revitalization Act. GSA has already used funds appropriated for the FDA 
``consolidation'' to construct an FDA facility (MOD-1) for FDA's Center 
for Veterinary Medicine in Beltsville, Prince George's County, 
Maryland. It has also used funds appropriated for the ``FDA 
consolidation'' to acquire property for a facility for CFSAN in College 
Park, Prince George's County, MD.
    GSA's fiscal year 2000 Budget Request proposes to construct a third 
``FDA consolidation'' in White Oak, Montgomery County, Maryland. Your 
committee needs to prevent this and to provide proper oversight of the 
FDA consolidation process.
    GSA's actions have served to contravene the FDA Revitalization 
Act's authorization for a single ``consolidated'' facility. The Senate 
Labor and Human Resources Committee Report (Senate Report No. 101-242, 
Feb. 1, 1990), that accompanied the bill that became the FDA 
Revitalization Act (P.L. 101-635) stated: ``. . . the FDA needs to be 
consolidated in a building''. The Report did not state that FDA needed 
to be ``consolidated'' in a campus or in a number of buildings at three 
separate locations.
    GSA is planning to use the funds appropriated in P.L. 104-58 to 
construct a massive new campus for FDA at White Oak. However, the 
present need for this project is questionable. The CFSAN/CVM buildings 
in Prince George's County will house those FDA Centers that now contain 
most or all of the FDA offices and laboratories that are reported to be 
in poor facilities.
    Many FDA offices, including my own, are in excellent buildings. 
Few, if any, of my coworkers complain about their present offices. 
Nevertheless, we would all relocate to White Oak if Congress funds this 
project.
    My coworkers and I rarely need to visit other FDA centers while 
reviewing medical device applications. The need to consolidate seems 
small.
    White Oak is three miles from the closest Metrorail station. In 
contrast, FDA's largest office building is presently only half a mile 
from a Metro station. FDA will lose many experienced employees if it 
moves to White Oak.
    White Oak is outside of the Capital Beltway, is not in or near any 
incorporated city, is far from any FDA-related Federal agencies, and is 
served by highly congested roads and highways. White Oak is a very poor 
location for a major Federal facility that would house over 6000 
employees.
    Buses presently travel infrequently to the proposed FDA site. 
Public transportation is not likely to improve greatly if FDA locates 
at White Oak, since it would attract few riders. Few FDA employees or 
visitors will likely choose to travel on buses for over three miles 
from the nearest Metro Station along heavily congested streets. Nearly 
everyone would drive, adding traffic congestion and air pollution to 
the Washington Metropolitan Area. In the spring of 1999, Wayne Curry, 
County Executive, Prince George's County, Maryland, informed NCPC in a 
letter of his concerns that the GSA budget had not requested funds for 
the road and highway improvements required to support the increased 
automobile traffic that an FDA consolidation at White Oak would bring 
to his County's roads.
    Other regional planning agencies also recognize the infrastructure 
problems that an FDA consolidation at White Oak would create. A recent 
Maryland-National Capital Park and Planning Commission document 
(``Transportation Policy Report'', Sept. 7, 1999, p. 27) states that it 
appears difficult to provide a good transit connection to the proposed 
FDA facility at White Oak. In April, 1999, the FDA headquarters chapter 
of the National Treasury Employees Union polled its members to 
determine their views on the proposed FDA consolidation at White Oak. 
Most of the 105 respondents asked the Union to oppose the White Oak 
consolidation. Only 30 percent supported the project.
    FDA employees expressed concerns that FDA's White Oak facility 
would be too far from Metro stations, would require them to travel for 
long distances through heavy traffic congestion, might lack sufficient 
parking, and might not be sufficiently decontaminated to prevent risks 
to their health. Congress needs to address these concerns before 
deciding to appropriate any construction funds to support the project. 
The Naval Surface Warfare Center is in an affluent suburban residential 
neighborhood. The White Oak area does not require Federal aid to 
support its development. There is no urgent need for a major FDA 
consolidation. An FDA consolidation at White Oak would only promote 
urban sprawl, would encourage further urban decentralization, would 
discourage FDA employees and FDA-related businesses from residing in 
the economically troubled District of Columbia, and would draw FDA-
related businesses out of the District.
    In 1997, GSA issued a final Environmental Impact Statement that 
supported its choice of the White Oak site. However, the EIS did not 
compare the White Oak site to any other alternative location. This was 
a violation of the National Environmental Policy Act of 1969 (P.L. 91-
190, 42 U.S.C. 4321-4347, January 1, 1970), which requires Federal 
agencies to evaluate ``to the fullest extent possible'' alternatives to 
proposed Federal actions that may affect the environment.
    In January, 1999, the Environmental Protection Agency asked GSA to 
compare additional alternative sites on public and private lands in a 
new Environmental Impact Statement. However, GSA has no present plans 
to prepare any such new Statement.
    Further, GSA did not inform District of Columbia officials of its 
plans and did not ask for their comments at any time during the 
preparation of its plans for the White Oak consolidation. This 
apparently violated NEPA, since the District Government has identified 
alternative sites that may be suitable for the consolidation and will 
experience adverse effects to its economy and environment if FDA 
consolidates at White Oak. Congress needs to address a great many 
issues before it considers funding this project. As the authorizing 
committee for GSA's public buildings projects, you should not permit 
this project to go forward at this time.
    2. Please assure that GSA will fully comply with Executive Order 
No. 12072 (Aug. 16, 1978, 42 Federal Register 36869), Executive Order 
13006 (May 24, 1996, 61 F.R. 26071), and NCPC regional policies and 
recommendations on development and distribution of Federal employment 
in the National Capital Region, consistent with the National Capital 
Planning Act of 1992.
    All of the above presently require GSA to give preference for the 
FDA consolidation to a site in the District of Columbia, such as the 
Southeast Federal Center, rather than to sites in suburban Montgomery 
and Prince George's Counties, Maryland. The Executive Orders further 
require GSA and FDA to economize on their space requirements to assure 
compliance with their provisions. GSA is not presently doing this.
    It is the responsibility of your committee when reviewing 
prospectuses to assure that the projects are being conducted in 
accordance with all applicable Federal laws and policies. To do this, 
you must assure that GSA does not expend any appropriated funds to 
construct any large public buildings until you have approved 
prospectuses that describe the projects and their maximum costs.
    I am explaining the specific laws, Executive Orders, regulations 
and policies that apply to the FDA consolidation below.
    3. Please consider any GSA 11(b) report on the FDA consolidation to 
be a prospectus, allow public witnesses to testify on the report, and 
take a vote on a resolution to approve or disapprove a project 
prospectus.
    On September 27, 1996, the Committee on Transportation and 
Infrastructure of the U.S. House of Representatives passed a resolution 
that directed GSA to provide an 11(b) report to Congress that describes 
its plans for the FDA consolidation. To the best of my knowledge, GSA 
has not yet submitted this report, which your committee needs to 
receive.
    The 11(b) report should contain all of the elements required for a 
prospectus. Your committee needs to treat the 11(b) report as a 
prospectus. Your committee should invite public witnesses to testify on 
the issues raised in the report and should vote on a resolution that 
approving or disapproves GSA's proposal.
    As noted above, the purpose of the prospectus is to allow your 
committee to assure the equitable distribution of public buildings 
throughout the United States with due regard for the comparative 
urgency of need for such buildings. GSA is proposing to relocate over 
800 Federal employees out of the District of Columbia at a time that 
D.C. is losing many Federal employees and Federal agencies. Your 
committee needs to consider whether these relocations ``assure the 
equitable distribution of public buildings throughout the United States 
with due regard for the comparative urgency of need for such 
buildings'' when it receives the 11(b) report. Your committee also 
needs to assure that adequate public transportation will be available 
to the site and that the project will comply with all provisions of the 
Public Buildings Act of 1959, as amended.
    4. Please conduct a public hearing on the proposed FDA 
consolidation. As part of this hearing, please consider the 
desirability of directing GSA to identify and to develop a prospectus 
for the FDA consolidation at a site that is available and suitable in 
Washington, D.C., or within 2,500 linear feet of an existing Metro 
Station in Maryland or in Northern Virginia.
    Your committee has recently held a number of public hearings on the 
effects of government actions that have contributed to urban sprawl, 
air pollution, and traffic congestion. These have alerted Federal 
officials and the public to the need to comply with Federal regulations 
regarding the location and development of Federal facilities and 
transportation modes that encourage ``Smart Growth'' in the nation's 
urban areas. On February 17, 1998, your committee held a field hearing 
on the Federal Building Leasing Process in Helena, Montana (S. Hrg. 
105-621, ``GSA Jurisdiction in Local Communities''). A number of 
witnesses and local government officials testified about GSA's 
violations of Executive Orders 12072 and 13006 in Montana and 
elsewhere. Witnesses and statements reported at this hearing that GSA's 
continuing violations of these Executive Orders have encouraged urban 
sprawl and the decay of Montana's central cities, as well as cities 
elsewhere in the Nation.
    On July 7, 1999, your committee held a field hearing in Las Vegas, 
Nevada, on Urban Sprawl and Livability Issues (Growth and Livability in 
the Las Vegas Valley). Your committee heard a number of local and 
Federal officials describe the traffic congestion and urban sprawl that 
has resulted from poor urban growth and transportation planning in 
Southern Nevada.
    On July 14, 1999, your committee held a public hearing on 
``Conformity Under the Clean Air Act'' (S. Hrg 106-52). Your committee 
heard testimony and received statements from a number of Federal and 
local officials and environmental organizations regarding the need for 
Smart Growth initiatives and proper urban development and 
transportation planning to prevent urban sprawl, traffic congestion, 
and air pollution.
    The Washington Metropolitan Area reportedly suffers from traffic 
congestion that is second only to that of the Greater Los Angeles Area. 
An FDA consolidation in suburban Maryland would worsen this congestion 
and its associated air pollution. It is not ``Smart Growth''.
    Your committee therefore needs to hold a public hearing on the FDA 
consolidation. It needs to study the feasibility of consolidating FDA 
in Washington, DC, or near a Metro station in suburban Maryland or 
Northern Virginia. White Oak is outside of any city, already 
experiences severe traffic congestion, and is three miles from the 
nearest Metro Station.
    Your hearing needs to address all of these issues. ``Smart Growth'' 
is important for the Washington Metropolitan Area. Congress should not 
permit FDA consolidation at White Oak to go forward without fully 
evaluating the adverse environmental impact that this project would 
incur. The 1995 recission removed any requirement that FDA consolidate 
any of its facilities in Montgomery County, Maryland. It therefore can 
consolidate in either the District, Maryland, or Virginia without 
leaving the Washington Metropolitan Area.
    On October 8, 1998, the Committee on Transportation and 
Infrastructure of the House of Representatives approved a resolution 
following receipt of a prospectus for the site acquisition and design 
of a Bureau of Alcohol, Tobacco and Firearms (BATF) Headquarters. This 
resolution limited the facility to locations in Washington, D.C., and 
within 2,500 linear feet of an existing Metro station in Northern 
Virginia. This was a wise choice, as it prevented BATF from 
contributing to urban sprawl and traffic congestion by locating in a 
suburb such as White Oak that lacks adequate public transportation.
    Your committee should assure that any FDA headquarters 
consolidation is restricted to locations similar to those for BATF's 
headquarters. Since FDA's headquarters facilities are presently located 
in Maryland and in parts of Washington, DC, that are near Virginia, 
your committee should consider a resolution that would direct GSA to 
locate the FDA consolidation in Washington, DC or near a Metro station 
in Maryland or Northern Virginia.
    A number of sites can accommodate FDA's headquarters in locations 
in Washington, D.C. and near Metro stations in Maryland and Northern 
Virginia. As an example, the federally owned Southeast Federal Center 
is adjacent to the Washington, D.C., Navy Yard. It is next to the Navy 
Yard Metro Station and is only a mile from the Capitol building.
    If the Southeast Federal Center is not suitable for the FDA 
consolidation, other sites are available near Metro stations that could 
likely accommodate the FDA consolidation. These include the St. 
Elizabeth's Hospital campus in Southeast DC and the Suitland Federal 
Center in Prince George's County, MD. Both of these sites appear to 
contain more than 150 acres of unused developable publicly owned space, 
are near Metro stations that are either open now or will open within a 
year, and are in economically depressed areas that are in urgent need 
of revitalization.
    GSA officials have refused my repeated requests to evaluate the 
Southeast Federal Center site as an alternative site for the 
consolidation. It appears that GSA will only consider this site if 
Congress directs it to consider sites in the District of Columbia.
    GSA officials have stated that no suitable sites are available for 
FDA to consolidate in Washington, D.C. However, they have refused to 
consult with officials of the District of Columbia regarding this 
project. D.C. officials have identified the Southeast Federal Center 
and the St. Elizabeth's Hospital site as being apparently suitable for 
the FDA consolidation.
    According to its EIS, GSA is planning to utilize 2.1 million gross 
square feet (GSF) for offices, laboratories, and support facilities for 
6,000 FDA employees and 500 visitors per day at White Oak. The 
Southeast Federal Center can easily accommodate this.
    The National Capital Planning Commission has approved a GSA Master 
Plan for the largely vacant 55 acre Southeast Federal Center. This plan 
anticipates the construction of 5.7 million gross (gsf) of Federal 
office space for 23,000 Federal employees. This greatly exceeds FDA's 
requirements.
    GSA has informed Congress that FDA requires 125 acres for its 
consolidated facility. However, neither GSA nor FDA have ever justified 
this so-called requirement. It appears that FDA desires a campus with 
buildings that do not exceed six stories and that contains many acres 
of surface parking.
    These are not real ``requirements''. An FDA facility at the 
Southeast Federal Center would require fewer parking spaces than would 
one at White Oak, since many employees and visitors would utilize 
Metro. Additionally, the construction of multilevel parking structures 
could greatly reduce the surface space needed for parking.
    The Master Plan for the Southeast Federal Center proposes a mix of 
buildings ranging in height from 20 feet to 110 feet. This mix could 
accommodate any special requirements that FDA might have for certain 
specialized facilities, such as laboratories.
    FDA does not require a 125-acre campus for its consolidation. Large 
high-rise buildings can readily house most or all of FDA's offices, 
laboratories, and ancillary facilities.
    Cities throughout the Nation contain many such research and office 
centers. Over 2000 National Institutes of Health (NIH) research 
laboratories are located in a single 14-story building that the 
government constructed in 1981 in Bethesda, Maryland. A single 18-story 
building in Rockville, Maryland, now houses many of FDA's offices, 
including the Office of the Commissioner. Congress and the Secretary of 
Health and Human Services (HHS) can readily oversee FDA's activities if 
FDA consolidates at the Southeast Federal Center. The Southeast Federal 
Center is close to both Maryland and Virginia. An FDA consolidation 
there will enhance the economies of three jurisdictions (D.C., 
Maryland, and Virginia). In contrast, a consolidation at White Oak 
would benefit Maryland at the expense of the District and Virginia.
    The median annual household income in the White Oak residential 
neighborhood exceeds affluent Montgomery County's median at $65,000. 
Southeast Washington's median household income is much lower. federally 
supported economic development is far more critical to Southeast D.C. 
than to White Oak.
    A National Capital Planning Commission (NCPC) plan has designated 
the Southeast Federal Center as an important site for new offices. NCPC 
expects this new economic development to ``assist the transformation of 
the Southeast Federal Center and adjacent Navy Yard into a lively urban 
waterfront of offices, restaurants, shops and marinas'' (``Extending 
the Legacy'', Plan for Washington's Monumental Core, NCPC, March 1996).
    The goal of NCPC's plan is to preserve and enhance Washington's 
Monumental Core, which is centered at the U.S. Capitol building. An FDA 
consolidation at the Southeast Federal Center can revitalize a decaying 
D.C. neighborhood and help achieve NCPC's goal.
    GSA's contention that there is no suitable space available for FDA 
in Washington, D.C. is incorrect. Even if the Southeast Federal Center 
is unsuitable for FDA for some reason, the St. Elizabeth Hospital site 
could easily accommodate a 125 acre FDA facility at a Southeast D.C. 
site that is near Metro.
    GSA has consistently failed to evaluate potential building sites in 
the District on either Federal, District, or private properties in any 
serious manner. It has refused to consult with District officials 
regarding any such sites, even after receiving written requests for 
such consultations from District officials and from the District's 
Corporation Counsel.
    On December 15, 1999, the Council of the District of Columbia 
approved a resolution (R12-834, Location of Federal Facilities in the 
District of Columbia Sense of the Council Resolution of 1998) that 
addressed this matter. The Council's resolution asked GSA, FDA, and 
other Federal agencies to consider sites in the District for the FDA 
consolidation and for other Federal facilities. The resolution asked 
Congress and the heads of all Federal agencies to give preference to 
District sites when locating facilities in the Washington Metropolitan 
Area, as required by Executive Orders 12072 and 13006.
    The Associate Commissioner for GSA's Public Building Service, Mr. 
Robert Peck, responded to the District's concerns by stating that 
Congress has mandated that FDA consolidate in Montgomery County, 
Maryland. This is not correct, since Congress has rescinded the funds 
for FDA's Montgomery County consolidation.
    Soon afterwards, Mr. John Ferren, the District's Corporation 
received a January, 1999, letter from a GSA attorney that similarly 
stated that Congress had mandated that FDA could only consolidate in 
Montgomery and Prince George's Counties, Maryland. This attorney was 
also incorrect.
    During a May 11, 1999, public hearing on GSA's budget request for 
Fiscal Year 2000, Mr. Paul Chistolini, Deputy Commissioner, Public 
Buildings Service, GSA, informed the Subcommittee on Economic 
Development, Public Buildings, Hazardous Pipeline Transportation of the 
Committee on Transportation and Infrastructure of the House of 
Representatives that GSA has determined that no suitable sites are 
available for FDA in the District. Mr. Chistolini is apparently 
misinformed, since neither he or any other GSA officials have consulted 
with District officials regarding this matter.
    Your committee needs to ask GSA to justify its repeated exclusion 
of District of Columbia sites for the FDA consolidation and its 
statements that no suitable sites are available for the FDA 
consolidation in the District. There is no doubt that GSA attorneys and 
officials are providing incorrect or incomplete information to 
Congress, the District, and the public. A redirection of GSA's planning 
efforts that required it to study sites in the District would place the 
project in compliance with Executive Orders Nos. 12072 and 13006. It 
would also be consistent with the purposes of the National Capital 
Planning Act of 1952 and the policies and recommendations that NCPC has 
developed to implement it.
    Executive Order No. 12072 and its implementing regulations direct 
the locations of Federal facilities in urban areas, including the 
National Capital Region. They require Federal agencies to locate and 
use their space and facilities so that the facilities ``shall serve to 
strengthen the Nation's cities'' and ``shall conserve existing urban 
resources, and encourage the development and redevelopment of cities.''
    President Clinton's Executive Order 13006, May 21, 1996, (Locating 
Federal Facilities on Historic Properties in Our Nation's Central 
Cities) reaffirmed and extended Executive Order 12072, by stating:
    ``Through the Administration's community empowerment initiatives, 
the Federal Government has undertaken various efforts to revitalize our 
central cities, which have historically served as the centers for 
growth and commerce in our metropolitan areas. Accordingly, the 
Administration hereby reaffirms the commitment set forth in Executive 
Order No. 12072 to strengthen our nation's cities by encouraging the 
location of Federal facilities in our central cities.''
    The Executive Orders require GSA and FDA officials to ``economize 
in their requirements for space''. They require Federal agencies in 
urban areas, such as the Washington Metropolitan Area, to strengthen 
the nation's cities and to encourage the locations of such agencies in 
the urban areas' central cities, such as Washington, D.C. The Orders 
discourage or prohibit the location of Federal facilities in outlying 
cities such as College Park and in unincorporated areas such as White 
Oak.
    41 CFR 101-17.5 states in paragraph (h), ``. . . these policies 
shall be applied in the National Capital Region in conjunction with 
regional policies on development and distribution of Federal employment 
in the National Capital Region established by the National Capital 
Planning Commission and consistent with the general purposes of the 
National Capital Planning Act of 1952, as amended''.
    GSA and FDA have long disregarded the Executive Order and NCPC's 
regional policies and recommendations when planning, leasing and 
constructing Federal buildings in the National Capital Region. To help 
resolve D.C.'s financial crisis, Congress needs to correct this.
    A long-standing NCPC policy presently encourages government 
agencies to redistribute Federal jobs in the National Capital Region. 
This redistribution is long overdue. Congress needs to address this in 
the Federal buildings appropriations process.
    The redistribution would implement NCPC policies and 
recommendations that NCPC has developed in compliance with National 
Capital Planning Act. It would reverse recent trends and correct a 
growing imbalance of Federal employment in the National Capital Region.
    In its Federal Capital Improvements Program (FCIP), National 
Capital Region, Fiscal Years 1997-2001 (April, 1996)(p.9), NCPC reports 
that the District of Columbia will lose 889 Federal employees as a 
result of the FDA consolidation project. This would accelerate a 
continuing transfer of Federal employment from the District to the 
Maryland and Virginia suburbs.
    According to NCPC's FCIP (p. 10), the District's percentage of the 
total Federal employment in the National Capital Region has declined 
from 58.O percent in 1969 to 52.4 percent in 1994. Because of this 
trend, NCPC's FCIP (p. 12) has a final recommendation that states, 
``The Commission encourages each agency to adhere to the policy in the 
Federal Employment element of the Comprehensive Plan adopted in 1983 
which specifies that the historic relative distribution of Federal 
employment of approximately 60 percent in the District of Columbia, and 
40 percent elsewhere in the Region should continue during the next two 
decades. This policy is used by the Commission to ensure the retention 
of the historic concentration of Federal employment in the District of 
Columbia, the seat of the national government.''
    A major FDA facility at the Southeast Federal Center is consistent 
with Executive Orders 12072 and 13006, their implementing regulations, 
and with NCPC policies and recommendations. A facility at White Oak is 
inconsistent with all of these.
    FDA now plans to move about 800 Federal employees in its Center for 
Food and Applied Nutrition (CFSAN) from the District of Columbia to a 
new facility in College Park, Prince George's County, Maryland. To 
reverse the accelerating decline of the nation's capital city, Congress 
must mitigate such relocations by directing the major FDA consolidation 
to the District of Columbia or to a site in Maryland or Northern 
Virginia that is near a Metro station.
    5. Please take appropriate action to prevent GSA from further 
misusing Federal funds by continuing its construction of FDA's CFSAN 
building in College Park, Prince George's County, Maryland.
    The Treasury, Postal Service and General Government Appropriations 
Act, 1996 (P.L. 104-52) provided $55,000,000 for GSA to develop an FDA 
facility in Prince Georges County, Maryland. GSA is now using these 
funds to begin construction of this facility in College Park, Maryland.
    However, no legislation has authorized construction of this 
facility at this time. The CFSAN facility is not a part of the major 
FDA consolidation authorized by the FDA Revitalization Act (P.L. 101-
635).
    P.L. 104-52 contains a provision that states:
    ``Provided further, That funds available to the General Services 
Administration shall not be available for expenses in connection with 
any construction, repair, alteration, and acquisition project for which 
a prospectus, if required by the Public Buildings Act of 1959, as 
amended, has not been approved, except that necessary funds may be 
expended for each project for required expenses in connection with the 
development of a proposed prospectus.''
    GSA has never submitted a prospectus to Congress that describes 
this project. Therefore, GSA can only use the appropriated funds to 
develop a proposed prospectus for the project. It cannot use these 
funds to construct the facility or to acquire property for it.
    GSA has informed NCPC that the College Park project is fully funded 
in the amount of $84,000,000. This is incorrect. While some funds may 
be available from appropriations made prior to 1996 which were exempted 
by provisions in appropriations legislation from the prospectus 
requirement, the agency cannot use any of the $55,000,000 appropriated 
in P.L. 104-52 for construction purposes.
    To support GSA's position, Mr. Chistolini of GSA provided the 
Subcommittee on Economic Development, Public Buildings, Hazardous 
Materials and Pipeline Transportation of the House Committee on 
Transportation and Infrastructure, U.S. House of Representatives, with 
a March 9, 1999, memorandum from Samuel J. Morris, III, Associate 
General Counsel, Real Property Division, GSA. I am attaching a copy of 
this memorandum.
    Mr. Morris' memorandum contends that the $55,000,000 appropriated 
in P.L. 104-52 is legally available to GSA for expenditures in 
connection with the CFSAN project without an approved prospectus. Mr. 
Morris is clearly incorrect.
    Mr. Morris noted that the FDA Consolidation Act (P.L. 101-635) 
authorized and directed the Secretary of HHS, in consultation with the 
Administrator of GSA, to enter into contracts for the design, 
construction, and operation of a consolidated FDA administrative and 
laboratory facility. However, he did not inform Mr. Chistolini that 
P.L. 101-635 only authorized a single FDA consolidated facility, and 
the College Park project is merely a relocation of CFSAN from the three 
buildings in District to a site in College Park.
    The College Park CFSAN facility is not part of any FDA 
consolidation. It is certainly not part of the FDA consolidation the 
GSA is proposing for White Oak. It is certainly not authorized by P.L. 
101-635. P.L. 101-635 certainly does not authorize the GSA 
Administrator to utilize any appropriated funds for any FDA 
consolidated facility. P.L. 101-635 certainly does not authorize more 
than one consolidated facility. Mr. Morris is clearly incorrect.
    Mr. Morris provided a reference to P.L. 104-52 and then stated that 
the history of this legislation indicates that it is for the FDA 
``consolidation'' project in Prince George's County, Maryland. However, 
Mr. Morris is not correct in stating that the CFSAN project is an FDA 
``consolidation'' authorized by the FDA Revitalization Act.
    Mr. Morris correctly states that P.L. 104-52 appropriated to GSA 
$55,000,000 under the heading ``New Construction'', ``Prince Georges 
(sic) County, Food and Drug Administration''. He does not note, 
however, that the language of the actual appropriation legislation does 
not contain the word ``consolidation''. This is a highly significant 
omission.
    Mr. Morris refers to various committee reports that accompanied 
this legislation and its original bill, H.R. 2020. However, he does not 
refer to the fact that the full House of Representatives passed an 
amendment that deleted an appropriation for an FDA consolidation that 
the committee print of H.R. 2020 had proposed.
    Indeed, and that during the House floor debate, Congressman Steny 
Hoyer, a major proponent of the project, stated that the most of the 
funds were not intended to support the FDA consolidation but were 
instead intended to support a separate, smaller facility for CFSAN and 
FDA's Center for Veterinary Medicine in Prince George's County. Mr. 
Morris did not note that much of the floor debate focused on the need 
for a prospectus for the project, in which Mr. Hoyer concurred. 
(Congressional Record H7200-H7206, July 19, 1995).
    Because the House version of H.R. 2020 included no funding for the 
FDA consolidation, while the Senate version did propose such funding, a 
conference committee needed to resolve this issue. Mr. Morris provided 
a reference to the Conference Report (H.R. Conference Report 104-291, 
pp. 7,47). However, he did not note that p. 7 stated only that 
$55,000,000 had been appropriated for an FDA construction project in 
Prince Georges (sic) County (without any reference to an FDA 
consolidation), nor did he note that page 47 of the Conference Report 
did not mention the Prince George's County Project. However, the 
Conference Report did state on p. 47: ``FDA CONSOLIDATION'' ``The 
conferees request GSA study the White Oak, Maryland site for the 
consolidation of FDA facilities.'' (Note: This request did not preclude 
GSA from studying other sites for the consolidation, including sites 
located in Washington, D.C.) Mr. Morris is clearly incorrect. The 
history of P.L. 105-52 clearly indicates that the conferees did not 
intend the $55,000,000 to be available for the FDA ``consolidation'' 
that P.L. 101-635 had authorized. Instead, the conferees asked GSA to 
study the White Oak site for the consolidation of FDA facilities.
    Mr. Morris cited the provision in P.L. 104-52 discussed above which 
restricts the use of the appropriated funds to the development of a 
proposed prospectus. However, he concluded that this restriction did 
not apply to CFSAN project by incorrectly stating that the FDA 
Revitalization Act specifically authorized the CFSAN project.
    In fact, if the FDA Revitalization Act had authorized an FDA 
consolidation in Prince Georges' County, it could not also have 
authorized another one in White Oak, Montgomery County. The Act only 
authorized one consolidated facility.
    Mr. Morris contended that GSA was not required to obtain separate 
authorization for the CFSAN project under the Public Buildings Act of 
1959, as amended. In fact, GSA must obtain separate authorization under 
this Act for any FDA consolidation or for the CFSAN project if it 
wishes to award any construction contracts, since the FDA 
Revitalization Act does not authorize GSA to award any such contracts.
    Mr. Morris concludes by stating that funds for the CFSAN project 
were appropriated in GSA's fiscal year 1996 Appropriations Act, the 
purposes of Section 7 have already been satisfied. This is incorrect, 
because the restrictive provision in the Act does not make any funds 
available to GSA except for the development of a proposed prospectus. 
The appropriated funds are not legally available for construction 
purposes.
    In a footnote on P. 2, Mr. Morris states that a Supreme Court 
holding in INS vs. Chadha may make the restrictive provision an 
unconstitutional Congressional veto. This is not correct. The 
restrictive provision does not condition the construction of any 
projects on the approval of prospectuses after P.L. 104-52 became law. 
Instead, the language of the provision states that funds are not 
available for construction purposes for any project for which a 
prospectus had not been approved before the enactment date of P.L. 104-
52
    No prospectus had been approved for the CFSAN project before P.L. 
104-52 became law on November 19, 1995. Therefore, no funds 
appropriated therein are legally available for construction purposes.
    GSA is clearly misusing Federal funds to construct the CFSAN 
project in College Park project. It is now using a faulty legal opinion 
to justify its illegal actions.
    The College Park project would remove about 750 FDA employees from 
downtown Washington, D.C., without your committee's approval. Since 
D.C. has recently lost many Federal jobs to suburban Maryland, the 
project is a violation of the Public Building Act's directive that GSA 
and your committee insure the equitable distribution of public 
buildings throughout the United States with due regard for the 
comparative urgency of need for such buildings. Further, the project 
will separate CFSAN from the remaining FDA components, since these will 
consolidate in another location. The College Park project is clearly 
inconsistent with the FDA Revitalization Act and will clearly decrease 
FDA's future efficiency.
    I therefore ask your committee to immediately stop GSA's continuing 
misuse of funds to construct the College Park facility. This may be 
accomplished in by a rescission or by other means.
    6. Please ask GSA or the General Accounting Office to appraise the 
value of the White Oak site and to estimate the revenues that the 
Government can gain from a sale of the site.
    Congress needs to receive an appraisal of the value of the former 
White Oak Naval Surface Warfare Center (NSWC), which GSA now controls. 
This could prepare the government for a sale of part or all of NSWC. It 
could also help Congress evaluate the real cost of an FDA consolidation 
at White Oak.
    A sale would support the original purpose of the base closure. Many 
taxpayers expect such closures to help to balance the Federal budget 
rather than to make a base available for a costly new Federal facility.
    GSA could contribute the proceeds from such a sale to the Federal 
Buildings Fund. Such proceeds could help fund other GSA projects or 
could help support the redevelopment of the Southeast Federal Center 
for FDA or for another Federal agency. Bernard H. Berne, M.D., Ph.D.
    Attachment: GSA Memorandum (March 9, 1999) from Samuel J. Morris, 
III, Associate General Counsel, Real Property Division, GSA, to Paul 
Chistolini, Deputy Commissioner, Public Buildings Service, GSA; 
Subject: FDA CFSAN Laboratory Facility, College Park, Maryland
                               __________
                               references
    1. DRAFT ENVIRONMENTAL IMPACT STATEMENT FOR FDA CONSOLIDATION 
MONTGOMERY COUNTY (GSA,March 1996): Plan for 130 acre FDA campus at 
White Oak Naval Surface Warfare Center and golf course on adjacent 
Federal property.
    2. EXECUTIVE ORDER 12072: FEDERAL SPACE MANAGEMENT (President Jimmy 
Carter, Aug. 16, 1978; 43 F.R. 36869; 40 U.S.C. Sec. 490; 3 CFR, 1979 
Comp., p. 213): Executive Order stating that the process for meeting 
Federal space needs in urban areas shall serve to strengthen the 
Nation's cities, shall give first consideration to a centralized 
community business area and adjacent areas of similar character, and 
that the heads of Executive agencies shall economize on their use of 
space.
    3. EXECUTIVE ORDER 13006: LOCATING FEDERAL FACILITIES ON HISTORIC 
PROPERTIES IN OUR NATION'S CITIES (President William J. Clinton, May 
21, 1996; Federal Register, Vol. 61, No. 102, May 24, 1996, pp. 26071-
26072): Executive Order reaffirming the Administration's commitment to 
Executive Order 120072 and encouraging the location of Federal 
facilities in historic buildings in central cities.
    4. THE FOOD AND DRUG ADMINISTRATION REVITALIZATION ACT (P.L. 101-
635, Nov. 28, 1990): The authorizing legislation for that authorized 
the Secretary of Health and Human Services to enter into contracts to 
design, construct and operate a single consolidated FDA administrative 
and laboratory facility. The GSA Administrator was only authorized to 
consult with the Secretary of HHS.
    5. PUBLIC BUILDINGS ACT OF 1959 (P.L. 85-249, Sept. 9, 1959): The 
Public Buildings Act requires the GSA Administrator to transmit a 
prospectus for large building projects to Congress. Sec. 7 states that 
approval of the prospectus is required ``in order to insure the 
equitable distribution of public buildings throughout the United States 
with due regard for the comparative urgency of need for such 
buildings.''
    6. ``CLINTON PROPOSES PACKAGE TO STIMULATE D.C. ECONOMY'' 
(Washington Post, March 12, 1997, Page 1). Report of President 
Clinton's statement that, to stimulate D.C.'s economy, he had directed 
his Cabinet secretaries to help the District of Columbia, beginning 
with keeping Federal agencies in the city.
    7. P.L. 104-19 (RESCISSIONS ACT, 1995). The 1995 Act that rescinded 
$228,000,000 of the funds previously appropriated for the Montgomery 
County, Maryland, FDA consolidation. The Act rescinded all construction 
funds for the facility.
    8. Letter from U.S. Environmental Protection Agency to Mr. Jag 
Bhargava, General Services Administration, January 5, 1999. Letter 
informs GSA.--Letter from EPA that formally encourages GSA to compare 
alternative sites on public as well as non-public lands in the proposed 
Environmental Impact Statement (EIS) for the FDA Consolidation. The 
letter states that EPA had already informed GSA that a previous FDA 
consolidation EIS had not adequately compared the White Oak alternative 
to alternatives on non-public lands, thus making a comparison of 
environmental impacts difficult with anything other than the no action 
alternative.
    9. Council of the District of Columbia, Resolution No. R12-834, 
(Location of Federal Facilities in the District of Columbia Sense of 
the Council Resolution of 1998; December 15, 1998. D.C. Council 
Resolution that requests the President, the Vice-President, the GSA 
Administrator, the GSA Regional Administrator, the FDA Commissioner, 
the OMB Director, the heads of all other Federal executive agencies, 
other Federal officials, and Members of Congress, to identify and give 
preference to District of Columbia sites when meeting Federal space 
needs in the Washington Metropolitan Area, consistent with Executive 
Orders 12072 and 13006.
    10. GSA Memorandum to Paul Chistolini, Deputy Commissioner, Public 
Buildings Service, GSA from Samuel J. Morris, III, Associate General 
Counsel, Real Properties Division, GSA, March 9, 1999: Memorandum from 
GSA General Counsel Office that incorrectly states that GSA can legally 
expend funds appropriated to GSA without a prospectus to construct 
FDA's Center for Food Safety and Applied Nutrition facility in College 
Park, Maryland.
    11. P.L. 104-52 (Treasury, Postal Services, and General Government 
Appropriations Act, 1996). The 1996 Act that appropriated $55,000,000 
for an FDA facility in Prince George's County, Maryland, restricted to 
the development of a proposed prospectus for the project in accordance 
with Public Buildings Act of 1959. The funds cannot be used for 
construction purposes because of this restriction.
    12. House Report No. 104-291, October 25, 1995; Conference 
Committee Report that accompanied the Treasury, Postal Services, and 
General Government Appropriations Act, 1996 (P.L. 104-52; 109 Stat. 
468). P.L. 104-52 did not appropriate any funds for the FDA 
consolidation, but appropriated funds for an FDA facility in Prince 
George's County, Maryland.
    In House Report 104-919, the conferees request GSA to study the 
White Oak site for the consolidation of FDA facilities. The language of 
the report makes it clear that this a request and not a directive. The 
conferees did not discuss the appropriation for the Prince Georges 
County project.
    13. P.L. 102-141, October 28, 1991 (Treasury, Postal Services, and 
General Government Appropriations Act, 1992): P.L. 102-141 appropriated 
funds to GSA's Federal Buildings Fund. The Act made $200,000,000 of 
these funds available for GSA to conduct activities related to new 
construction for an FDA consolidation(s) in Montgomery and Prince 
George's Counties, Maryland. A provision in P.L. 102-141 exempted the 
use of the appropriated funds from the prospectus approval requirement 
of the Public Buildings Act of 1959.
    14. CONGRESSIONAL RECORD, July 19, 1995, pp. H7200-7206: Record of 
House of Representatives floor debate on funding for FDA consolidation. 
House removed proposed funding for project. Some of funds were for FDA 
consolidation in Montgomery County, MD, while others were for FDA 
Center for Food Safety and Applied Nutrition facility in Prince 
George's County, MD. Bernard H. Berne, M.D., Ph.D. 4316 North Carlin 
Springs Road, #26 Arlington, Virginia 22203-2035 October 4, 1999

                                   - 

</pre></body></html>
